<html>
<title> - HAMAS' BENEFACTORS: A NETWORK OF TERROR</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                HAMAS' BENEFACTORS: A NETWORK OF TERROR

=======================================================================



                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

                           Serial No. 113-213

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
89-738                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin

    added 5/29/14 
CURT CLAWSON, Florida-
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14                               JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida<greek-l>        LOIS FRANKEL, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin--5/30/14 
CURT CLAWSON, Florida--
    added 7/9/14 

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jonathan Schanzer, Ph.D., vice president for research, Foundation 
  for Defense of Democracies.....................................    11
Mr. Avi Jorisch, senior fellow for counterterrorism, American 
  Foreign Policy Council.........................................    34
Steven A. Cook, Ph.D., Hasib J. Sabbagh senior fellow for Middle 
  Eastern studies, Council on Foreign Relations..................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Jonathan Schanzer, Ph.D.: Prepared statement.....................    14
Mr. Avi Jorisch: Prepared statement..............................    36
Steven A. Cook, Ph.D.: Prepared statement........................    50

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    84


                HAMAS' BENEFACTORS: A NETWORK OF TERROR

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The joint subcommittee will come to 
order.
    After recognizing myself, Chairman Poe, Ranking Member 
Deutch, and Ranking Member Sherman for our opening statements, 
I will then recognize other members seeking recognition. We 
will then hear from our distinguished panel of witnesses. And 
without objection, the witnesses' prepared statements will be 
made a part of the record, and members may have 5 days in which 
to insert statements and questions for the record, subject to 
the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    ISIL, al-Qaeda, Hezbollah, Hamas--these are some of the 
most dangerous terrorist groups out today. Though they have all 
of their differences, notably different ideologies, different 
objectives, what they do have in common is that they are all 
non-state actors who need to get their resources from 
somewhere.
    We are now just 2 weeks into the open-ended ceasefire 
agreement between Israel and Hamas. In the previous 2 months, 
Hamas terrorists have fired over 4,500 rockets indiscriminately 
into Israel, including into its most populated areas such as 
Jerusalem and Tel Aviv.
    Of course, it isn't forgotten that the start of these 
attacks coincided with the abduction and murder of three 
innocent Israeli teenagers. Hamas originally denied its 
complicity in this heinous crime but last month admitted 
responsibility, and it is important to note when this admission 
took place and by whom.
    The announcement was made by a known terrorist and Hamas 
operative in Turkey where he lives openly. This is the same 
Turkey that is a supposed U.S. and NATO ally that is harboring 
not just this member of Hamas, but it is known to be harboring 
several of Hamas' top operatives.
    But harboring these terrorists isn't where Turkey stops. It 
provides financial, material, and political support for this 
U.S. designated foreign terrorist organization and has been 
doing so for years without repercussions. In fact, in 2011, 
Turkish Prime Minister Erdogan said, ``Hamas is not a terrorist 
organization. It is a political party.''
    But Turkey isn't the only U.S. ally, or at least U.S. 
partner, that has been known to harbor Hamas leadership and 
provide the terrorist group with funds. Qatar, the very same 
Qatar that the administration entrusted to monitor the Taliban 
five, who were swapped for Sergeant Bergdahl, and which it 
recently agreed to an $11 billion armed sale with, has been 
known to be perhaps the largest financial patron of Hamas.
    Not only does Qatar harbor Hamas figurehead Khaled Meshaal, 
Qatar reportedly threatened to exile him if Hamas accepted an 
Egyptian-backed cease fire agreement last month. In 2011, the 
Emir of Qatar was the first head of state to visit Gaza and 
pledged over $400 million of infrastructure money to Hamas. 
Qatar funds Hamas' strikes in Gaza, as well as its project, 
building terror tunnels from which to attack Israel rather than 
building up Gaza for the Palestinian people.
    The administration took a step to block a recent transfer 
of funds from Qatar to Hamas terrorists, and earlier this year 
the Treasury Department openly admitted that Qatar for many 
years has openly financed Hamas. It is also supporting 
extremist groups operating in Syria and has become such a 
permissive terrorist financing environment for all of these 
groups, and that includes its funding of the Muslim 
Brotherhood, and, along with Kuwait, has become a major source 
of funding for ISIL, a threat that must be eliminated.
    According to reports, Egypt has charged former leader 
Mohamed Morsi with giving national security documents to Qatar, 
and Qatari connections to the Brotherhood are deep and 
troubling. But the administration has not done nearly enough to 
curb Qatari support for terror.
    We cannot continue to allow Qatari funds to go to terrorist 
groups, Hamas or any other, unabated and unaddressed. Yet we 
have been setting the example for the Qataris and the Turks 
with how the administration is dealing with Iran. Iran has long 
been a U.S.-designated state sponsor of terrorism and has 
actively worked to target and undermine our national security 
interest.
    Iranian technology and rockets have been used to launch 
thousands of rockets further into Israel, placing the majority 
of the country at risk. And the regime's financial support has 
allowed Hamas to continue to resupply itself after its 
stockpiles run low or are destroyed by Israel. Yet for all that 
we know of the relationship between Iran and these terrorist 
groups, the administration has ignored this all in its pursuit 
of its weak nuclear deal with Iran.
    In fact, the Iranian regime's support for terror, its 
ballistic missile program, or its human rights record, aren't 
even on the table in these negotiations. So while we continue 
to give away the store, we strengthen and legitimize Iran and 
embolden other actors who see just how naive we truly are being 
to this threat.
    We saw how well this approach worked with North Korea 
during those nuclear negotiations, and I was one of the first 
who admonished the Bush administration for its mistake to take 
North Korea off the list of state sponsor of terrorism and for 
the terrible example that it set for future nuclear talks with 
this rogue regime.
    While North Korea continues to circumvent and violate U.N. 
National Security Council resolutions, like the incident with 
the North Korean flag vessel and Cuban weapons, or the reports 
that Pyongyang is seeking to conclude an arms deal with Hamas, 
it couldn't be any clearer that it deserves to be redesignated 
as a state sponsor of terrorism country now.
    Some of our allies no longer trust us, and our enemies no 
longer fear us. If we don't take immediate and decisive action 
against those nations that support terror and undermine our 
national security, especially those that are supposed allies, 
then we put our interest and our citizens at greater risk.
    We cannot allow this support for terrorism to continue. We 
must cut off the funds that go to Hamas and other terror 
groups. Only then can we begin to take down those terrorist 
groups and counter their radical ideologies. It all starts with 
the ideology. But like a flame without air, these radical 
ideologies, without money and support, will die out.
    I am pleased to turn to my ranking member, my good friend, 
Congressman Ted Deutch, for his opening statement.
    Mr. Deutch. Thank you very much, Chairman Ros-Lehtinen. I 
would first like to express how proud I am of what this 
committee and the full House was able to achieve in a 
bipartisan manner during this summer when Hamas waged war 
against Israel. We passed a resolution that I co-introduced 
with you, Madam Chairman, to denounce Hamas' use of human 
shields as a gross violation of international humanitarian law 
and a heinous disregard of the basic human rights of the people 
of Gaza.
    We passed another resolution with 166 of our colleagues 
signing on as co-sponsors making clear to Hamas and the rest of 
the world that the United States stands firmly and steadfastly 
with Israel and will support that country as it exercises its 
right to defend itself from rocket attacks and other terrorist 
threats.
    And I join with many of my colleagues to deliver a message 
to the U.N. High Commissioner for Human Rights exposing their 
concentrated focus on Israel rather than Hamas, the terrorist 
group willing to sacrifice thousands of innocent lives and 
endanger millions more. All of these actions and plenty more 
send a clear sign to the world that Congress stands together in 
support of Israel's security and will forcibly respond to 
terrorists that threaten it. So I would like to thank my 
colleagues.
    As the cease fire and the conflict between Israel and Gaza 
has taken hold, we have got to face the challenge of addressing 
this network of support for Hamas. The simple conclusion that 
we can reach is that Turkey, Qatar, and Iran all played varying 
roles in supporting Hamas, whether financially, militarily, 
politically, or a combination.
    These countries stood with Hamas as it encouraged families 
to remain in buildings as human shields, despite repeated 
warnings to leave by these Israeli military. These countries 
stood with Hamas as it spent millions and millions of dollars, 
not on the welfare of the Palestinian people but on tunnels for 
terrorizing Israeli communities.
    These countries stood with Hamas as it shot thousands of 
rockets into Israel indiscriminately and targeted urban areas 
full of civilians. These are despicable acts that were 
permitted to occur with the continued support from this 
network. And as I stated before, Congress took appropriate 
measures to condemn these actions, and I believe that the 
condemnation can be extended back to Hamas' benefactors.
    However, the issue becomes more complicated when you began 
to zoom out and try to understand the larger regional 
implications of the conflict and of this terrorist support 
network. This is where it gets particularly complicated, 
especially in the context of the Syrian conflict, a calamity 
that is in desperate need of the world's attention.
    The response to the United States thus far has been mostly 
humanitarian, with some military support to vetted opposition 
groups. But a great deal of our on-the-ground involvement in 
Syria is to Syrians inside the country that comes through its 
northern neighbor, Turkey. It is with cooperation with the 
Turkish Government that we and other humanitarian partners are 
able to continue to use their routes into the country.
    These are helpful measures that we need to deliver 
essential aid to millions of Syrians internally displaced and 
without access to basic supplies or food. The country has also 
taken in--Turkey, taken in over 800,000 Syrian refugees fleeing 
death and destruction.
    Turkey is also in a position to play a large role in 
combating ISIL. The threat to the Turks is very tangible. The 
group is active not far from the Turkish border. Turkey, a NATO 
ally, may soon have to deal with ISIL not as a threat to the 
stability of neighboring countries but to the direct security 
of that nation itself.
    The state has begun to take measures to restrict funds and 
foreign fighters flowing into Syria and is working to reduce 
the fuel smuggling out of Syria that helps in part to fund 
ISIL's campaigns. Turkey has joined in Secretary Kerry's 
announced coalition of states to combat the growing ISIL threat 
in Syria and Iraq.
    However, we cannot turn away from the country's actions 
during the Hamas-Israel conflict. Turkey not only stood at the 
side of Hamas, but then Prime Minister Erdogan made egregious 
and wildly offensive accusations at Israel, comparing Israeli 
actions to those of Hitler and the Nazis. These statements make 
it abundantly clear that now President Erdogan and other 
Turkish leaders have fully embraced this policy of giving 
support and political cover to Hamas.
    So while complex conflicts like this require a careful 
approach when dealing with our partners in the region, our 
policy has to remain explicitly clear toward Iran. Hamas' 
military capacity, including arms, rockets, methods of combat, 
and general funding, is largely provided by Iran. Repeatedly, 
the Israelis have intercepted shipments of Iranian arms en 
route to the Gaza strip. Most recently in March of this year 
Israelis intercepted the Klos C ship carrying 40 M302 missiles, 
181 mortars, 400,000 guns. These are weapons that would have 
undoubtedly been used against Israel.
    We must remember that Hamas was able to reach Tel-Aviv, 
Jerusalem, and other heavily populated civilian centers largely 
due to the advanced rockets provided for or funded by Iran. Let 
me be clear: Any mutual interest that the United States and 
Iran might have, such as in combating the ISIL threat, will not 
distract us from our condemnation of Iran's sponsorship of 
terrorism and our tough stance during negotiations of their 
nuclear program, nor will it detract from the necessity of 
preventing a nuclear armed Iran.
    We are just now moving away from a turbulent summer during 
which Israel faced significant threats from a terrorist group 
right on its border. Countries whose funds, resources, 
political clout, and vocal public endorsement were used to help 
Hamas fire rockets into civilian areas, build tunnels, and 
inflicting pain on innocent families are in some ways 
implicated for these same crimes.
    With things changing every day in the region, requiring new 
calculations and new strategies, it is important that the 
United States continue to make decisions based on our national 
security interest and those of our allies.
    I look forward to hearing the testimony of our witnesses 
today to explain not only the foundation of this network of 
support for Hamas but the true motivations and interests of 
these countries and how this information can be used to help 
shape effective policy decisions here, and I yield back.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now I am pleased to recognize Mr. Poe, because we are 
doing a joint subcommittee hearing. He is the chairman of our 
Subcommittee on Terrorism. Judge Poe.
    Mr. Poe. I thank the chair. Hamas is a brutal terrorist 
organization. They are not a state. They are an international 
criminal organization that preaches hate and practices murder. 
The Hamas bigoted charter states, ``The day of judgment will 
not come until Muslims fight Jews and kill them. And even 
stones and trees will call on Muslims to come and kill the 
Jews.''
    Specifically, the charter also calls for the annihilation 
and destruction of Israel. ``Israel will exist and will 
continue to exist until Islam will obliterate it, just as it 
obliterated others before it.''
    And Hamas has not revised this charter. It has not 
disavowed parts of it at all. It still refuses to recognize 
Israel's right to exist and still calls for the killing of 
Jews. In 2006, Hamas senior leader Mahad Al-Zahra said that the 
group ``will not change a single word of this covenant.'' Hamas 
invented the tactic of suicide bombing that murdered many 
Israelis.
    In April 1993, Syria's peace negotiations between Israel 
and the Palestinian leadership were underway. Hamas hates 
peace, so it had an operative named Tamom Nablusi drive a van 
into a parked bus and detonate it. This was the first-ever 
suicide bombing and it killed a Palestinian and wounded eight 
Israeli soldiers. Since then, Hamas has been responsible for 
the murder of hundreds--hundreds of innocent Israelis.
    Hamas does not care about the lives or needs of the 
Palestinians either. As millions of Palestinians suffer from 
unemployment and the lack of basic services, Hamas spends money 
of its ill-gotten gain on tunnels and rockets from Iran 
designated to kill, yes, Israelis. It cannot govern and it will 
only drag Palestinians further into despair.
    During Protective Edge, Israel's most recent operation 
against Hamas, the Israelis, in defense of their nation, 
destroyed or intercepted a majority of Hamas' rocket supply, 
maybe as many as 8,000 rockets. The U.N. and the world media 
faulted Israel for this war. They got it wrong. Hamas is a 
foreign terrorist organization. It is not a state. Israel acted 
in self-defense, and all countries have the sovereign right to 
do it. And we should make it clear that the United States 
supports Israel in this endeavor.
    Destroying rockets will not get rid of this problem, 
however. Hamas gets shipments of rockets from Iran and makes 
rockets from dual use material thanks to technology and know-
how from Iran. It is only a matter of time before they reload 
and start firing those offensive rockets again.
    To stop Hamas, we must go after its finances and its 
suppliers, and there is plenty of evidence that Qatar and NATO 
partner Turkey, in addition to Iran, are the main backers of 
Hamas. Qatar and Turkey have pledged public and financial 
support to the tune of hundreds of millions of dollars.
    Khaled Meshaal, the leader of Hamas, lives comfortably in 
Qatar while the Palestinians go hungry. He lives along with a 
number of other senior commanders. In Turkey, the leader of a 
Hamas military wing, Qassam Brigades, also lives freely. The 
actions of Qatar and Turkey have inflamed relations with 
friendly Sunni Arab countries in the region, like Jordan, the 
UAE, and the Saudis.
    Qatar and Turkey should be held accountable for their 
actions, not just in Gaza with Hamas, but their support for 
other Sunni extremist groups. The United States must get tough 
with Qatar while looking at alternatives for our military bases 
in Qatar.
    Terrorist organizations, including Hamas, use Qatar as a 
financial clearinghouse. Despite years of U.S. Government 
urging Qatar to crack down, things have just gotten worse. In 
Turkey, Erdogan, our Erdogan regime must cut ties with Hamas 
and the Muslim Brotherhood or there is going to be 
consequences. There are all sorts of illicit financial 
transactions being processed through Turkey, including Iranian 
activity designed to skirt sanctions. No one should be 
surprised.
    It is time for the United States Government to wake up and 
see the Middle East for what it is and what it has become, not 
what we would just like it to be. If Hamas is going to be 
defeated, its money flow has to stop. We cannot stop Hamas' 
finances by ourselves. We need countries in the region to work 
with us. If we want peace for the United States and peace for 
our ally, Israel, we must make our message clear. If you help 
finance Hamas, there will be significant consequences, and they 
will be unpleasant.
    I hope Qatar and Turkey are listening. No more filthy lucre 
to finance Hamas. And that is just the way it is.
    I will yield back.
    Ms. Ros-Lehtinen. Thank you so much, Judge Poe.
    Try to top that, Mr. Sherman, ranking member of Terrorism 
Subcommittee.
    Mr. Sherman. Thank the chairman and my fellow ranking 
member for holding these hearings. It is important that we 
identify the benefactors of Hamas, so that we can effectively 
deny it material and political support. Keep in mind, Hamas' 
strategy is to create as many civilian casualties as possible 
on both sides. That is why its rocket attacks are designed to 
create as many civilian casualties in Israel, and then it uses 
as its chief political weapon the fact that there are civilian 
casualties among the Palestinians. Virtually every rocket it 
sends is a war crime, since its purpose is to kill civilians.
    The Israelis admirably have sought to minimize civilian 
casualties, and they have incurred losses as a result. If 
Israel had used bunker buster bombs to destroy tunnels, there 
would have been fewer Israeli casualties, and a lot more 
Palestinian civilians would have died. Instead, Israel sent in 
its ground forces, and it is that decision that caused 
virtually all of Israel's casualties in the most recent war.
    We have got to avoid the body bag count method of moral 
analysis. We cannot assume that whichever side loses the most 
civilians has morality on its side. By that analysis, 
Eisenhower is a war criminal, since there are far more German 
deaths, civilian and military, than there were American.
    We know that Hamas has instigated the current conflict by 
kidnapping the three teenagers and firing rockets. We know that 
the purpose of the rockets it sent was to kill as many Israeli 
civilians as possible. For example, an Israeli child is killed 
by these rockets. It is not a tragic mistake for Hamas; it is a 
cause of celebration.
    The Iron Dome did much not only to save Israeli civilians 
but to save Palestinian civilians that would have died had 
Israel engaged in an even more robust response, which would 
have been necessary had there been more Israeli civilian 
casualties.
    So who are Hamas' benefactors? We have heard them from the 
other opening statements. They are Qatar and Turkey and Iran. 
Iran has played a major role. There was a falling out in 2001 
over Hamas siding with the anti-Assad forces in Syria. That has 
been patched up to some degree. But Iran is so preoccupied with 
other events involving Shiites from Lebanon to Iraq that it has 
reduced its support for Hamas for both political and economic 
reasons.
    Qatar--it has been described as 300 families and a TV 
station, 300 families, a TV station, and a ton of petro 
dollars. Qatar often takes the role of trying to be close with 
every side of every conflict in the Middle East. They are 
buying $11 billion worth of our weapons, and they host the 
forward base of CENTCOM, the al Udeid Air Base.
    Their defense depends on us. We took the position during 
the first Gulf War that we would not allow small oil-rich 
kingdoms or sheikdoms to be wiped off the map. I don't know if 
they should assume, given their policies, that that Kuwait Rule 
applies to Qatar.
    Turkey is providing substantial political support and 
economic support. $300 million was set aside for the Hamas 
government in 2011, and Hamas allows its ``charities'' to fund 
Hamas directly. Pending weapons sales, military-to-military 
relations, economic sanctions, and the use of financial 
sanctions and blacklists for charitable organizations are all 
important levers.
    We have to focus not only on what the Governments of Turkey 
and Qatar do, but what they allow their wealthy citizens to do 
through trusts and foundations. And I look forward to our 
witnesses' testimony and their recommendations on how to attack 
this problem.
    I yield back.
    Ms. Ros-Lehtinen. You did a very good job, Mr. Sherman.
    Mr. Sherman. Well, you set a high standard. You compared me 
to the gentleman from Texas.
    Ms. Ros-Lehtinen. I know. After Judge Poe, that is tough.
    I will now be proud to recognize members for their 1-minute 
opening statements, and we will just go by the board that is 
right in front of your screen. Mr. Chabot of Ohio, our 
subcommittee chair.
    Mr. Chabot. Thank you, Madam Chair and Chairman Poe, for 
holding this important hearing to take a look at the links 
between Hamas and its supporters. Hamas required billions of 
dollars and considerable access to weapons and technology to 
carry on the nearly 2-month-long war against Israel.
    I, and I believe many of my colleagues, believe that the 
source of Hamas' weapons and financial resources warrants 
considerable scrutiny. Although the conflict has quieted down 
for now, I am deeply concerned about the support provided to 
Hamas by a handful of global actors, despite Hamas' 
reprehensible policy of maximizing civilian casualties.
    And as chairman of the Asia-Pacific Subcommittee, I 
continue to be concerned about North Korea's support for Hamas 
and other terrorist groups. I want to, again, thank both of you 
for holding this hearing, as well as our ranking members, and I 
yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman. I think there are 
four things that are pretty clear about Hamas and the situation 
in Gaza. One, Hamas must abjure its own charter and radically 
alter its behavior if it is ever going to have any respectable 
place at the international table.
    Secondly, its benefactors need to cut off its financial 
pipeline right now. Thirdly, the recent violence in the Gaza 
does show that there is no substitute for a long-term 
committed, sustained peace process between Israel and its 
Palestinian neighbors. And, fourth, the United States must 
remain engaged if we are ever going to end the cycle of 
violence in the Middle East.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Brooks.
    Mr. Brooks. Thank you, Madam Chairman. I defer my time so 
that we can hear the witnesses.
    Ms. Ros-Lehtinen. Mr. Kennedy.
    Mr. Kennedy. Thank you, Madam Chairman. And I want to thank 
the witnesses for their testimony and look forward to hearing 
what you have to say. I echo the sentiments from our 
colleagues, very much looking forward to any suggestions you 
might have about how we can crack down on the financing of 
Hamas and their sources of income.
    And, secondly, what we can try to do to build up civil 
society there to erode support for Hamas in the long term as 
well. This became such a challenge because they were able to 
win an election. They were able to provide government services 
and give an explanation to the residents of Gaza as to why they 
should be representing them in government.
    What suggestions do you have for us about how we can make 
that case more explicit as to why that is not so?
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Perry.
    Mr. Perry. Thanks, Madam Chair. I am just going to reserve 
time for the witnesses.
    Thank you.
    Ms. Ros-Lehtinen. Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair. Having visited Gaza 
many times, you are struck with the great potential of that 
region located along the Mediterranean, a population of less 
than 2 million, really a beautiful place in the sun 
potentially, but for the fact that Hamas is in control.
    And we see that time and again Hamas is not concerned about 
the death and destruction that happens in Gaza with some 2,100 
lives, 72 percent of whom are civilians. Rather, they seek to 
exploit Palestinian pain and suffering, and these are the 
conditions they seek to exploit, not conditions that they seek 
to end.
    So I look forward to today's discussion with our witnesses, 
and with that I will yield back.
    Ms. Ros-Lehtinen. Mr. Clawson.
    Mr. Clawson. After watching thousands of rockets fired into 
Gaza--into Israel from Gaza in the last 50-day war, it is clear 
that Gaza must be demilitarized. The first step of course is 
what some of my colleagues have already mentioned so clearly, 
and that is defunding. And the best way to do that is to follow 
the money.
    I am curious about what banking institutions are involved 
and how the transactions can even happen. It is not easy to 
move money across borders, in the Western world in particular. 
So that is my first question that you all might want to answer 
for us. And what countries are funneling that money? A lot of 
that has already been mentioned.
    So let us follow the money here today, see what allies of 
ours are involved, and let us see if we can cut the tap off.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chairman, and thank you 
again for calling this important hearing. I would also like to 
echo the words of the ranking member on the hard and good work 
that this committee, the full committee, did over the summer 
during the war and look forward to continuing to do that.
    As far as today's hearing, I think it is crucial that we 
have the opportunity to more deeply understand the support, the 
vast support network, that is funding and allowing Hamas to 
carry out its nefarious activities. I think it is crucial that 
we look for ways to change that network or influence and change 
the dynamics, so Hamas does come and continue to face the 
pressures, to alter their strategies and change their 
calculations.
    I would also like to hear from the witnesses today a little 
more in depth about the vast wealth accumulated by many of the 
leaders of Hamas while many of the people in Gaza are suffering 
and living in absolute poverty. But this is a crucial issue, 
and I am grateful that the committee is having this hearing.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    Mr. Duffy.
    Mr. Duffy. I will reserve my time, Madam Chair.
    Ms. Ros-Lehtinen. Mr. Lowenthal.
    Mr. Lowenthal. I yield.
    Ms. Ros-Lehtinen. Thank you.
    Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chairwoman. Thank you for 
calling this hearing. It is interesting to me we have heard a 
lot of members, I think correctly, talk about Turkey's role in 
funding Hamas, talking about Qatar's role, and we see these 
guys as the usual suspects for what is going on with ISIS, too. 
You have jihadists pouring into Syria. Where are they getting 
there from? They are getting there through Turkey.
    And so you have a President in Turkey who has aligned his 
country firmly on the side of the Muslim Brotherhood, and I 
would say that global jihad is just somebody who is supposed to 
be a part of NATO. So I think this cries out for more 
examination. And, of course, Qatar to continue to fund Sunni 
supremacism throughout the region, it is very much antagonistic 
to our interest and to the interest of our allies such as 
Israel.
    So thank you, Madam Chairwoman. I yield back.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Castro yields back. So Mr. Meadows is recognized.
    Mr. Meadows. I would just like to hear from our witnesses 
the correlation between Hamas' funding now and how that 
parallels what we have seen with Hezbollah using charitable 
organizations, money laundering, et cetera, to fund much of 
their activity. It seems like the nexus there is indeed Iran, 
and I would love for you to comment on that.
    And I will yield back, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. I would like to hear from 
you guys, as we go through this, recommendings on how we can 
change the dynamics over there. As Mr. Sherman brought out, 
Hamas' strategy is to create as many civilian casualties as 
possible. And with the foreign aid that we give to the 
Palestinian Authority of $500 million a year, and in their own 
Resolution 21 and 23 they reward terrorists for creating crimes 
of terror and killing people, Israeli citizens and American 
citizens, they pay them a monthly stipend.
    I want to hear your recommendations on removing that and if 
that is--if you guys think that is a plausible thing that we 
should do. We have put in a resolution to get rid of that, and 
I would like to hear your comments.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Cook. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you. I would just like to associate 
myself with the----
    Ms. Ros-Lehtinen. Microphone.
    Mr. Rohrabacher. Yes. Hello. I would like to associate 
myself with the profound and passionate remarks of Judge Poe.
    Mr. Sherman. Especially that filthy lucre. I liked that, 
Judge Poe.
    Ms. Ros-Lehtinen. And to wrap up, Mr. Weber.
    Mr. Weber. Let us go.
    Ms. Ros-Lehtinen. All right. Thank you very much. Thank you 
to all of our members for a wonderful attendance. We should 
give out cookies next week, Eddy. This is wonderful. And Mr. 
Deutch came on time, early even. What? So pretty good. Working 
on being a Senator, we hear.
    So we are so pleased to welcome back to our subcommittee 
Dr. Jonathan Schanzer, who is vice president for research for 
the Foundation for Defense of Democracies. Prior to this, Dr. 
Schanzer served as a counterterrorism analyst at the U.S. 
Department of the Treasury where he took part in the 
designation of numerous terrorism financiers.
    Thank you so much.
    We will then hear from Mr. Avi Jorisch. Mr. Jorisch is a 
senior fellow for counterterrorism at the American Foreign 
Policy Council. Prior to this, Mr. Jorisch also served at the 
Department of the Treasury as a policy advisor in the Office of 
Terrorism and Financial Intelligence, as well as a liaison to 
the Department of Homeland Security and as a terrorism 
consultant for the Department of Defense. Welcome.
    And last, but certainly not least, we would like to welcome 
Dr. Steven Cook. Dr. Cook comes to us from the Council of 
Foreign Relations where he is a senior fellow for Middle 
Eastern studies. Prior to this, Dr. Cook was a research fellow 
at the Brookings Institute and Washington Institute for Near 
East Policy.
    Thank you so much. We are so pleased with our distinguished 
panel. As I said, your prepared statements have already been 
made part of the record, and we will first hear from Dr. 
Schanzer. Thank you.

   STATEMENT OF JONATHAN SCHANZER, PH.D., VICE PRESIDENT FOR 
        RESEARCH, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Chairman Ros-Lehtinen, Chairman Poe, Ranking 
Member Deutch, Ranking Member Sherman, and distinguished 
members of these two subcommittees, thank you for the 
opportunity to testify today about Hamas finance.
    I should note up front that Egypt, under the Muslim 
Brotherhood regime of Mohamed Morsi, previously served as a 
major hub of Hamas finance. But since the ouster of Morsi by 
Abdel Fattah al-Sisi, the regime in Egypt has delivered a blow 
to Hamas finance by shutting down some 1,700 smuggling tunnels. 
This has deprived Hamas of the opportunity to tax its people on 
smuggled goods and has encumbered the group's ability to 
transfer cash to its own coffers.
    With Egypt now under control, there are four other 
jurisdictions that contribute to Hamas' estimated $1 billion 
annual budget, and those countries are Qatar, Turkey, Iran, and 
Sudan. Qatar is currently Hamas' ATM. In the words of Treasury 
Undersecretary David Cohen, Qatar has ``for many years openly 
financed Hamas.'' The previous Emir pledged $400 million to 
Hamas in 2012. Qatar is also the home of many Hamas figures, 
including Hamas popular leader Khaled Meshaal. During my trip 
to Doha last year, one expatriate quipped to me that residents 
of Doha catch sight of Meshaal the way New Yorkers talk of 
seeing Woody Allen.
    Qatar was Hamas' greatest advocate during the recent Gaza 
war, and Doha doesn't stop there. It supports many other 
terrorist groups, as has already been mentioned, yet we call 
Qatar an ally and maintain our largest air base in the Middle 
East on Qatari soil.
    Turkey is another such ``frenemy.'' A NATO ally, Turkey has 
in recent years become a haven for at least a dozen Hamas 
figures, including the founder of Hamas's military wing in the 
West Bank. His name is Saleh al-Arouri. Arouri recently made 
headlines when he announced that Hamas killed the three Israeli 
teens in the West Bank in June. Tellingly, he made this 
announcement in the presence of Turkey's Deputy Prime Minister, 
who was there in the audience.
    Reports also suggest that Turkey may have pledged $300 
million to Hamas several years ago. But Turkey's support to 
terror doesn't end there. Turkey has maintained a dangerous 
border policy that has contributed to the rise of ISIS. Ankara 
has also helped Iran, another Hamas patron, evade sanctions.
    Iran's support to Hamas is a complicated story. While it 
was once the group's top patron, Iran's support to Hamas has 
declined over disagreements about the serious civil war. 
However, it is clear that strong military ties continue. The 
long-range rockets fired by Hamas in the recent war, M302s, 
were furnished by Iran. Many of the smaller and indigenously 
produced rockets in Gaza are the result of Iranian technical 
assistance. More broadly, Hamas' guerilla capabilities have 
improved markedly over the years thanks to Iranian arms and 
training.
    Sudan, meanwhile, plays a significant role in the smuggling 
of larger rockets to Hamas, and this does not get a lot of 
attention. Iran ships these rockets by sea, and they often 
arrive in Port Sudan. From there, they are smuggled up through 
Egypt and across the Sinai Peninsula. Sudan has also stored 
Iranian rockets for Hamas. Notably, Israel bombed the Khartoum 
warehouse full of Fajr 5 rockets in October 2012.
    Madam and Mr. Chairman, I now offer these recommendations 
to Congress for consideration.
    Number one, support Egypt's efforts to deter Hamas finance. 
They are doing more than was expected of them. They deserve our 
assistance in this regard.
    Number two, pressure Qatar to freeze Hamas assets and expel 
Khaled Meshaal, along with Hamas leaders.
    Number three, pressure Turkey to freeze Hamas assets and 
expel Saleh al-Arouri, along with Hamas leaders.
    Number four, Treasury should designate individuals and 
entities in both Qatar and Turkey that are involved in 
terrorism finance.
    Five, Congress should consider putting a hold on U.S. 
military sales to Qatar and Turkey until Hamas finance is 
addressed.
    Number six, conduct hearings and demand intelligence 
assessments of Qatar and Turkey. Both countries are involved in 
a lot more illicit financial activity than merely supporting 
Hamas.
    Seven, conduct an assessment by the GAO or the Pentagon on 
what it would take to move the al Udeid Air Base out of Qatar. 
It is difficult to justify our presence there while Qatar 
supports Hamas and other terrorist groups.
    Number eight, work with our defense and intelligence 
agencies to use both carrots and sticks to convince Qatar and 
Turkey to halt their support to Hamas.
    Number nine, consider ways to address the problem of 
terrorism finance through the JPOA nuclear talks with Iran.
    Number ten, keep the pressure on Iran through Treasury's 
terrorism sanctions. More of those are needed always.
    And, finally, we must work with regional partners to block 
weapons shipments to Port Sudan.
    On behalf of the Foundation for Defense of Democracies, I 
thank you for inviting me to testify today, and I look forward 
to your questions.
    Thank you.
    [The prepared statement of Mr. Schanzer follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Jorisch.

        STATEMENT OF MR. AVI JORISCH, SENIOR FELLOW FOR 
       COUNTERTERRORISM, AMERICAN FOREIGN POLICY COUNCIL

    Mr. Jorisch. Good morning, Chairman, Ranking Members, 
distinguished members of the subcommittees. I am honored to 
appear before these distinguished committees to address a 
subject of great importance to our country and the world. I am 
also pleased to sit alongside my accomplished colleagues, 
Jonathan Schanzer and Steven Cook.
    One of the most effective ways of countering radical 
Islamic organizations such as Hamas is to have an exhaustive 
understanding of their financing in order to cut off their 
economic lifeblood. It is in the highest interests of the 
United States to force radical organizations to pay a political 
and economic price for their barbaric policies and ultimately 
shut them down.
    Hamas' budget is between $500 million and $1 billion 
annually. In the last 7 years, Hamas has passed four budgets. 
In its most recent budget, 27 percent was to come from domestic 
revenue. The remaining 73 was to be covered by foreign 
donations. It is estimated that Hamas collected about $175 
million annually from the tunnels, which served as the main 
source of their domestic revenue collection.
    International aid to Hamas has historically come from U.S.-
designated state sponsors of terror, including Iran, Syria, and 
Sudan. But more recently, Qatar and Turkey have stepped up 
their giving. From 2006 through 2011, Iran served as Hamas' 
largest donor, contributing some $250 million to $300 million 
annually. Historically, Hamas has provided--I beg your pardon, 
Iran has provided Hamas with weapons, technical assistance, and 
military training. But in 2011 there was a near total rupture 
in the relationship when Hamas refused to support the Assad 
regime in Syria.
    Israel's operation Protective Edge has brought Hamas and 
Iran closer, and we are now witnessing a reestablishment of 
bilateral relations. From 1999 through 2011, Hamas used 
Damascus as their primary political base of operations. But in 
2012, the group announced its support for the Syrian 
opposition. As a Sunni organization, Hamas decided to support 
its fellow Sunni jihadis. Naturally, the Assad regime cut off 
Hamas.
    For Qatar, when Hamas lost funding in and support from 
Syria and Iran, it turned to the other Sunni regional powers, 
principally Qatar and Turkey. While it is difficult to say 
precisely how much financial support Qatar provides to Hamas, 
in 2012, the Emir pledged more than $400 million. Turkey 
provides strong political support and is also rumored to donate 
up to $300 million annually to Hamas.
    Ideologically, Turkey, above and beyond Hamas' other 
donors, has supported the Hamas world view and their barbaric 
agenda. Ankara also provides comfort and support to some of the 
organization's most important leaders. For its part, Sudan has 
served as a willing waystation for years for any weapons 
shipped to Gaza. As Dr. Schanzer pointed out, in four instances 
over the last 5 years, Israel is reported to have bombed arms 
shipments and Sudanese weapons factories.
    U.S. policy regarding terrorist organizations and their 
rogue financial supporters has unfortunately been inconsistent, 
to say the very least. On the one hand, President Obama has 
waged war against ISIS; on the other hand, he has proven 
himself open to working with Hamas and concomitantly 
negotiating with Iran, which may well be the biggest threat of 
all to Western liberal democracies.
    Hamas' strategy and ideology are almost identical to Sunni 
groups such as ISIS and al-Qaeda, and Shiite organizations, 
like Hezbollah and the Clerical Elite, that governs Iran today. 
Hamas fires rockets from heavily populated areas into Israel's 
major cities. It sends its members on suicide bombing missions. 
ISIS kidnaps and beheads journalists, and Iran is marching 
toward a nuclear bomb while using terror as an operational 
weapon.
    Madam Chairman, I have three primarily policy 
recommendations for the subcommittees to consider.
    First, the U.S. should cease all disbursement of aid to the 
Palestinian Authority as a result of the unity government 
formed between Hamas and Fatah this past June. Reversing years 
of U.S. foreign policy of not engaging in any way, shape, or 
form with a designated terrorist entity, Secretary of State 
John Kerry declared the U.S. would cooperate with the 
technocratic government.
    Two, in light of Qatar and Turkey's relationship with 
Hamas, the United States should threaten to blacklist both 
countries, both for being state sponsors of terror or for 
disrupting the Middle East peace process. Congress should make 
clear that any form of financial or material support for 
terrorist groups such as Hamas violates U.S. counterterrorism 
laws.
    And finally, three, the United States should declare 
unequivocally that Hamas and al-Qaeda, including its affiliates 
such as ISIS, are ideologically one and the same and employ 
similar tactics. The West defeated each of the 20th century's 
hostile ideologies using the full panoply of military, 
economic, diplomatic, and ideological weapons. Today's greatest 
challenge--radical Islam--deserves no less attention and a 
multi-partite attack on so dangerous a threat to the life and 
principles that we and our allies hold dear.
    Thank you, ma'am.
    [The prepared statement of Mr. Jorisch follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Jorisch.
    Dr. Cook.

  STATEMENT OF STEVEN A. COOK, PH.D., HASIB J. SABBAGH SENIOR 
FELLOW FOR MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Cook. Thank you, Madam Chairman, Ranking Members, 
members of the subcommittee for inviting me here to appear 
before you to discuss the important issue of Hamas' 
Benefactors: A Network of Terror.
    The focus of my testimony will be the underlying political 
and philosophical reasons why Hamas enjoys support from Qatar 
and Turkey in particular. I will leave the financial issues to 
my two colleagues, Avi Jorisch and Jonathan Schanzer.
    Let me begin with Qatar. Qatar's support for Hamas is 
consistent with its populist approach to the region, which is 
part of Doha's broader effort to establish and reinforce its 
policy independence from larger and more powerful actors, 
especially Saudi Arabia.
    Qatar's $400 million investment in Gaza in 2012, at a time 
when Hamas was moving away from Syria and Iran over the Syrian 
civil war, should be viewed in a similar light to Hamas'--to 
Doha's $8 billion investment in Egypt from the time Hosni 
Mubarak fell through the ouster of Mohamed Morsi, and its 
support for certain groups in Libya, an effort to leverage its 
vast wealth to purchase influence around the Middle East.
    The fact that the Qataris have tended to use their 
resources to support Islamist groups does not necessarily 
indicate that they share the violent world view of Hamas and 
other groups. Rumors about the former Emir, Hamad bin-Khalifa 
al Thani, being in support of the Muslim Brotherhood aside, it 
is more likely that the Qataris miscalculated the effect and 
extent of political changes in the region.
    Like observers in the United States, Europe, Turkey, and 
the Arab world, Doha drew the erroneous conclusion that popular 
movements that brought changes in the Middle East had paved the 
way for new Islamist political groups in the region. That being 
said, believing that Islamist political movements would 
dominate regional politics as a result of the Arab uprisings is 
qualitatively different from support for Hamas, however.
    Doha maintains without any irony that the sanctuary that it 
provides for Khaled Meshaal and others is a humanitarian issue. 
It also maintains that it plays an important role as a 
facilitator of communication between the Hamas leadership and 
other regional actors. This claim would be more compelling if 
the Qataris demonstrated they could actually influence Hamas 
leaders.
    This isn't necessarily to excuse anything that the Qataris 
have done. It is not hard to notice the cynicism of Qataris who 
have used Khaled Meshaal's presence in Doha, their overall 
relationship with Hamas, as part of this broad regional 
competition with the Saudis, the Emiratis, and in particular 
now the Egyptians.
    Although there is a certain propaganda value to giving 
Meshaal so much airtime on Al Jazeera and holding Qatar out as 
a defender of so-called Islamic rights in Palestine in contrast 
to other regional powers that implicitly support the Israeli 
war effort, Palestinians and Israelis suffer in the process.
    Let me now turn my attention to Turkey. On a superficial 
level, Turkey is an unlikely supporter of Hamas. It is a NATO 
ally, an aspirant to EU membership. It has long had relations 
with Israel, and it maintains a secular political order. But 
there are five important reasons why Turkey is a supporter of 
Hamas.
    First, there is broad public support among the Turkish 
public for the Palestinian cause. This doesn't mean that Turks 
support Hamas, broadly speaking. But it has allowed the ruling 
Justice and Development Party to ally support, legitimate 
support, for Palestinian rights with support for Hamas.
    President Erdogan and the party from which he comes, the 
party's rank and file, are all anti-Zionists. Their history, 
their philosophy, their world view is steeped in anti-Zionism. 
In February 2013, in fact, then Prime Minister, now President 
Erdogan declared Zionism as a crime against humanity.
    Third, the Justice and Development Party has long harbored 
what can only be described as a peculiar soft spot for Hamas. 
Party leaders and activists are quite open about the fact that 
they see themselves and their history reflected in Hamas. They 
built a narrative linking the Turkish Islamist movement's 
struggle against a repressive state and elite with Hamas and 
its conflict with Israel and the Palestinian Authority.
    Fourth, Turkey's foreign policy activism under the Justice 
and Development Party has placed an emphasis on Muslim 
solidarity. Hamas and its conflict with Israel falls into the 
category of a Muslim cause, and is, thus, deserving of Turkish 
support.
    And, finally, the strategic vision of Turkey's new Prime 
Minister, Ahmet Davutoglu, who previously served as Foreign 
Policy Advisor to the Prime Minister, and then, since 2009, as 
the Foreign Minister, requires support for Islamist movements 
around the Middle East, including Hamas.
    Davutoglu, quite simply, believes that a state system based 
on nationalism and political institutions that trace their 
lineage to the West is fundamentally unsustainable in Muslim 
societies. If Turkey is going to lead the region, Ankara must 
do so as a Muslim power in cooperation with Islamist groups 
like Hamas.
    Well, what should the United States do about this? In the 
context of the current regional environment, it does not lend 
itself to the United States taking tough actions against either 
Doha or Ankara. I will remind you that the President is about 
to announce a strategy for combating ISIS which will no doubt 
involve both Turkey and Qatar.
    Hamas isn't going to lay down its arms against Israel, at 
least not in the short time horizons that policymakers have to 
deal with. Destroying Hamas, at least in the short term, is not 
even in the interest of Israel. The best answer that the United 
States--is to put itself in a position to actually pressure on 
its allies, Qatar and Turkey, to place, in turn, pressure on 
Hamas.
    How can the United States possibly do that? First, the 
Obama administration has been far too solicitous toward both 
countries, especially Turkey. There have been denunciations 
from the podium in the State Department and other places of 
Erdogan's heated rhetoric during the recent war, but nothing 
from the President or the Secretary of State.
    Congress has been relatively silent on both Qatar and 
Turkey. During the conflict this past summer, four Members of 
the Congressional Turkey Caucus wrote a strongly worded letter 
to Prime Minister Erdogan, but other than that the Congress has 
not had much to say on the heated rhetoric coming from Anakar 
in particular.
    We should not allow a coming set of delegations to go to 
Turkey to register U.S. disapproval. There is a tremendous 
interest among the Obama administration to engage with the new 
Prime Minister of Turkey. I think that this is a mistake that 
is unlikely to move the Turks away from Hamas.
    The suggestion that we should somehow dismantle the al 
Udeid Air Base is a long-term solution to a much bigger problem 
that Qatar presents. Unfortunately, policymakers must be 
realistic. The U.S. does not have the means to make support for 
Hamas costly in either Turkey or Qatar. We will have to accept 
these relations for the moment while working over the long term 
to go after the financing of Hamas, to build up the Palestinian 
Authority against Hamas, and to make the impression on our 
allies that support for Hamas will, over a long term, have 
consequences here in the United States.
    Thank you very much.
    [The prepared statement of Mr. Cook follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    I will start with the questions and answers. Dr. Cook, I 
find your testimony troubling. You said, ``We will have to 
accept these relationships.'' And in your testimony you state 
that the U.S. has little to no leverage over Qatar or Turkey, 
pointed to repeatedly the al Udeid Air Base in Qatar as giving 
Qatar the position of relative strength in U.S.-Qatari 
relationship, yet Dr. Schanzer and Dr. Jorisch point to this as 
a point of leverage in favor of the U.S.
    You state, ``There is not much else that can be done 
regarding Qatar, which is in a position of relative strength 
given the importance of Udeid to the United States military.'' 
The United States may have little leverage with the Qataris 
about Turkey. Your recommendation is that the Secretary of 
Commerce should cancel a visit.
    And you state, ``Unfortunately, Washington does not have 
the ability, primarily because of the United States needing 
Qatar and Turkey on other policy issues, to make these 
relations costly for Doha and Ankara. More than likely, the 
United States will have to accept this reality.'' That is 
pretty depressing, and I think that we do have a lot of 
leverage.
    Giving Qatar support for terrorist groups--Hamas, ISIL, the 
Muslim Brotherhood, and others--it is very--in its very 
contentious relationship with some of the Gulf nations, I would 
ask the gentlemen if there is a way of leveraging what we have, 
plus our relations with the Gulf nations to press Qatar to 
abandon its support for terror. If so, why, and why has the 
administration taken the position of appeasing Qatar instead of 
condemning it for supporting terrorism.
    And the latest events in Gaza have rehashed the problem of 
appeasing Qatar instead of the Unity Palestinian Authority 
government. And thank you for pointing out how we have got to 
make sure that that divorce happens. What is Hamas' role, and 
what will it be? Hamas has no intention of recognizing Israel 
or making peace with the Jewish state. It is a U.S.-designated 
state sponsor of terrorism.
    There are laws on the books--I was the author of one--that 
would preclude any U.S. funds from going to any Palestinian 
Government that included Hamas. Thank you for your 
recommendations about cutting off funding.
    And, Dr. Schanzer, you have done extensive research into 
the Fatah-Hamas relationship. And as you answer your questions 
from members, because I won't have enough time, i hope that you 
will further explain those financial ties between the 
Palestinian Authority and Hamas, and whether it is possible 
that U.S. money has indeed been going directly to Hamas, or 
indirectly.
    We know that Hamas used to get a lot of its money from 
taxing goods that entered Gaza from the smuggling tunnels, and 
they taxed residents also of Gaza, and of course from its 
patrons like Turkey and Qatar. We also know that it receives 
funds from other sources, like front companies and charities, 
and Mr. Meadows had asked about that.
    The Treasury has done a pretty good job of countering 
Hamas' fund-raising activities, but more can still be done. If 
you could at times that our members will ask questions, somehow 
walk us through the network of charities and front companies 
and how this money finds its way into the hands of Hamas.
    But let me just, in my remaining 1 minute, have your take 
on whether we do have leverage or not over Qatar and Turkey.
    Mr. Schanzer. Madam Chairman, thank you. I would say that 
we do have leverage. I think that, number one, to conduct an 
assessment of what it would take to leave al Udeid and to 
create a new base, whether in--I have heard options such as the 
UAE or Erbil or perhaps other places where we know that allies 
would be interested in doing this.
    I think even alerting the Qataris that we are interested in 
having these assessments done, either by the GAO or by the 
Pentagon, I think would send the exact right message to the 
Qataris that they will not enjoy the protection of the United 
States forever, so long as this relationship continues with 
Hamas.
    The other thing that I would note here is that we know that 
there are entities within the Qatari Government or within--that 
are based in Qatar, Qatari nationals, that are involved in 
supporting Hamas. We have to date not designated them. This 
could send shockwaves through the Qatari financial system. It 
would be a signal to banks around the world, to countries 
around the world, that Qatar has been tainted in the support of 
this terrorist organization. We have done this in the past with 
other terror groups and other countries----
    Ms. Ros-Lehtinen. I am sorry. I am out of time.
    Mr. Schanzer. Sure.
    Ms. Ros-Lehtinen. And I would just point out, one last 
note, that the Qatari Foundation, or whatever they call 
themselves these days, was one of the sponsors of the 
Congressional baseball game. Shame on us. With their name in 
lights, yikes. So we should start pointing fingers at 
ourselves.
    Mr. Deutch is recognized. Thank you.
    Mr. Deutch. Thank you, Madam Chairman. I am just going to 
pick up where you stopped, Dr. Schanzer. You have--the panel 
has spoken about the budget. We have often focused on 
charities, but the specific focus on Qatar and their 
contribution to somewhere between a $500 million and $1 billion 
annual budget, how does the money flow? Where does it go? What 
banking institutions does it go through? And compare that to 
the way that we treat the banking system when it accepts the 
money of other terrorist groups, so that we might get some 
guidance on how to proceed from a policy standpoint, Dr. 
Schanzer.
    Mr. Schanzer. Sure. Ranking Member Deutch, this is a 
difficult question to answer, and I think that is primarily 
because it is not like Hamas is settling up at the end of the 
year with Ernst & Young and declaring how they move their 
money. I mean, this is--obviously, this is a clandestine 
terrorist organization.
    We have some hints about how some of this money is moved. 
For example, there was the recent attempt to transfer $60 
million from Qatar to the Arab Bank in Jordan. They of course 
declined that transaction. This was just a couple of months ago 
once the Unity government had been forged, and that was turned 
down.
    We also have been aware of a practice known as bulk cash 
smuggling through the tunnels connecting the Sinai Peninsula to 
the Gaza Strip. This is a very fancy way that Treasury 
describes basically carrying suitcases or trash bags full of 
cash under those tunnels to replenish the banks in the Gaza 
Strip.
    There is all sorts of money laundering, over invoicing, 
under invoicing, sort of classic money laundering techniques, 
as well as perhaps even some straightforward transfers with 
bank accounts that appear to be legitimate with connecting 
countries. So there is lots of different ways that Hamas moves 
this money, but a lot of it is dealt in cash and that--but I 
should just note that this is the result of Treasury's 
successes.
    We have driven Hamas' finances underground, and to a 
certain extent we are now victims of our own success because it 
has made it harder to track.
    Mr. Deutch. Right. But, Mr. Jorisch, $500 million or $1 
billion, that is a lot of plastic bags and suitcases. I mean, 
how do we track it?
    Mr. Jorisch. Ultimately, I agree with Dr. Schanzer. Much of 
the cash is going through the tunnels or was going through the 
tunnels, but ultimately the way the banking sector works is 
setting up correspondent bank accounts.
    Ranking Member Deutch, I don't know where you bank, but let 
us assume your account is at Citibank. Just like you have an 
account at Citibank, Citibank has correspondent accounts all 
over the globe. It is called the correspondent account. Qatar 
has correspondent accounts all over the globe, including having 
Qatari financial institutions that have correspondent accounts 
here in the United States.
    If we really wanted to send shockwaves through the Qataris 
and Turkey, simply say to them, ``Your financial institutions 
have to go through an added level of due diligence when going 
through the U.S. financial sector.'' One, FINCEN, part of the 
Treasury Department, could issue a financial advisory that 
simply states, ``Qatar and Turkey are helping Hamas and other 
terrorist organizations launder their money,'' also sending 
shockwaves through the financial sector.
    And, finally, leveraging international organizations such 
as the U.N. and the Financial Action Task Force, which is the 
international body for money laundering in terms of finance, 
and have our U.S. delegation push them to add them to specific 
lists, basically ensuring that their access to the 
international financial sector is hampered.
    Mr. Deutch. I appreciate that. I just have 1 minute left, 
Dr. Schanzer.
    So, Dr. Cook, let me just ask you, you talked about 
regional competition. You talked about Qatar trying to announce 
its policy independence from Saudi Arabia. Can you--just in the 
remaining time I have, can you speak to the relationship 
between Qatar and the other nations that it is trying to 
separate itself from? And why is that happening? And, 
ultimately, how does that rift play into our hands of trying to 
stop the flow of funds to terrorist groups?
    Mr. Cook. Thank you very much for the question, Ranking 
Member Deutch. Qatar is engaged in a competition with the 
larger, arguably more powerful countries in the region. In 
particular, it has a pathological problem with the Kingdom of 
Saudi Arabia. There has been an effort over a long period of 
time, but over the last w decades in particular, in order for 
the countries to establish their independence. Al Jazeera and 
its kind of unfettered look at the rest the region is part of 
reinforcing that independence.
    Funding groups that are not approved by the Saudis, the 
Emiratis, on the other hand of an issue, is a way in which the 
countries have sought to pursue a populist foreign policy and a 
way in which it has sought to reinforce this independence. That 
is, in part, the reason why the countries have invested as much 
as they have in, for example, Hamas, although all of the money 
that--this $500 million to $1 billion budget does not all come 
from the Qataris, not to excuse their behavior.
    But as Dr. Schanzer pointed out, the Treasury has been 
successful in literally driving Hamas underground. A good 
portion of that budget comes from smuggling under tunnels on 
the Sinai frontier in which Hamas collects taxes. There is an 
argument to be made that if you didn't have those tunnels, and 
you opened up those borders, Hamas would suffer financially 
because they wouldn't be able to tax at the kind of rate that 
they have.
    But, nevertheless, it is a policy conundrum for the United 
States and others how to go--exactly go out there. Do we try to 
shut down the tunnels? It increases funding for Hamas. How do 
we deal with Qatar, a country that in the short run, as we are 
about to undertake additional military operations in Iraq, as 
we are about to leave Afghanistan, as we are about to 
potentially expand military operations that include Syria, a 
place from which we are going to prosecute hostilities in the 
region.
    I will remind you and the members of the subcommittees that 
it was in 1996 that the United States abandoned its bases in 
Saudi Arabia, because the Saudis kicked U.S. forces out of the 
Kingdom. And it was in Qatar that the countries built this 
facility for the United States.
    So over the short run, in the next months or years, 
abandoning operations at al Udeid are not feasible, and that is 
why this leverage that we are talking about is not as great as 
it seems in the abstract.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Pleased to yield to our subcommittee chair, Mr. Poe, Judge 
Poe.
    Mr. Poe. Thank you, gentlemen. I appreciate especially the 
fact that all of you not only have answers, you have plans, 
excellent ideas on a plan. Excellent. I thank you for that. We 
ought to take them all and implement as many as we can.
    There is a couple of things that I see. One, direct money 
going to Hamas, and then indirect money from the United States 
going to Hamas, and I would like to talk about the second one 
first.
    The United States gives money to the Palestinian Authority. 
Is that correct? The Palestinian Authority uses money to pay 
terrorists who are in jail in Israel, and the more serious the 
crime that this terrorist, Hamas terrorist, has committed 
against Israel or Israeli citizens, the more money they get. Is 
that true? You can say yes or no or explain. We will go down 
the row.
    Mr. Schanzer. It is a bit more complicated, Chairman Poe. 
In light of the most recent Unity government that was created, 
as I understand it, the PA knew that this was going to be a 
problem, and it was--and in order to head off that problem they 
moved the office that deals with this to the PLO and got it out 
of the hands of the PA.
    The PLO is of course not within the jurisdiction of the 
United States. We don't fund it. We don't have much influence 
over it. And, in fact, their funding is a black box. We don't--
you know, we still don't know where it comes from. And so it is 
my understanding that they have moved the financing of these 
people who are now sitting in Israeli jails to the PLO.
    Mr. Poe. So, but the Palestinians--Palestinian Authority 
does not pay it, the Palestinian--who pays that money to Hamas 
terrorists who are in jail? I know they get paid to go to 
prison because they have committed a terrorist act. That is 
kind of----
    Mr. Schanzer. So we believe right now that it is the PLO, 
although I think it is still not clear. It is not exactly as if 
the Unity government has had time to take form and for the 
bureaucracies to have shifted. The intent was back in I guess 
it was April or May when the Unity government was formed, the 
intent was to move it over to the PLO. It would be an 
interesting question right now to query the PA to find out 
whether they have in fact moved that or if it still sits within 
the PA.
    Mr. Poe. All right. Mr. Jorisch.
    Mr. Jorisch. And I would counter by saying money is 
fungible, sir. And when money goes from the United States to 
the PA, ultimately you are swapping out one dollar for another. 
We are by happenstance--not even by happenstance, but we are 
funding these activities from taking place.
    Mr. Poe. And I am speaking specifically about paying Hamas 
terrorists to be in prison. And the more serious the crime, the 
more money they get. Is that correct? Are they paid by the 
Palestinian Authority or the Palestinians for these terrorists 
when they are in jail in Israel?
    Mr. Jorisch. They are paid by--as Dr. Schanzer pointed out, 
originally they were paid by Hamas. And the Unity government 
came into place, these funds may have moved to an outside 
entity. But ultimately when they commit terrorist attacks, yes, 
their families are paid a significant sum of money on a monthly 
amount. Yes, sir.
    Mr. Poe. Do you find that a bit alarming?
    Mr. Jorisch. I find it more than alarming. I find it 
disturbing and reprehensible.
    Mr. Poe. And the more serious the crime, the more people 
maybe they kill, the bigger--more amount of money they get for 
themselves or their family. Is that correct as well or not?
    Mr. Jorisch. The larger the crime, the more they get?
    Mr. Poe. Yes.
    Mr. Jorisch. I can't say that I know, sir.
    Mr. Poe. Anybody else can answer that? Dr. Cook, do you 
know?
    Mr. Cook. I am going to do something very un-Washington-
like and say I do not know, sir.
    Mr. Poe. Thank you very much. Qatar and Turkey, what 
approximately is the percentage of money that Hamas receives 
from these two countries? So their operating expense is--they 
have 100 percent. How much of that 100 percent is from Qatar or 
from Turkey? And Turkey, excuse me.
    Mr. Schanzer. Well, if you add up the annual $400 million 
that we believe has been pledged by the Qataris, and perhaps 
the rumored $300 million provided by the Turks, then you are 
looking at $700 million out of what was roughly a $1 billion 
budget. And this actually goes to--I want to just briefly----
    Mr. Poe. Is that 70 percent?
    Mr. Schanzer. That would be 70 percent. Yes, sir.
    Mr. Poe. Okay.
    Mr. Schanzer. I am no math major, but I would actually just 
note, and this was--I wanted to add this on to my response to 
Mr. Deutch, that we believe that because of what has happened 
in Egypt that budget has dropped precipitously. That it could 
be now that Hamas is operating on a $300 million or even $350 
million budget, I mean, we are really--we are talking about now 
35 percent, using that math again, of that original budget.
    That is significant, and in many ways that could have been 
the reason why they launched this war, to basically fight for 
the ability to have those tunnels either reopened or to have 
the border opened. That may have been their strategy. In fact, 
according to some former colleagues of mine, that is exactly 
what they decided to do after that Arab Bank transfer was 
declined.
    Mr. Poe. How many tunnels are there or were there?
    Mr. Schanzer. Well, there have been 1,700 that have been 
shut down on the EU border.
    Mr. Poe. Okay.
    Mr. Schanzer. Thank you very much. I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Sherman of California.
    Mr. Sherman. Did you say 1,700?
    Mr. Schanzer. I did.
    Mr. Sherman. Glad our record is clear. One other thing to 
clarify for the record, and that is that just because we have a 
military base in Qatar does not mean we have to defend that 
regime or that country. And last I heard, we have a base in 
Guantanamo. I know some members of this committee who do not 
believe that we should defend the Cuban regime from whatever 
external or internal threats it faces. You know, it wouldn't be 
a bad thing to get rid of the al Thani family and keep the 
base.
    We have got a proposed $11 billion military sale, looking 
at the weapons that Qatar is acquiring in that transaction, but 
their overall military posture. Are they posturing themselves 
to defend themselves from an attack from Iran, from Saudi 
Arabia, or to project power outside their own borders?
    Mr. Schanzer. I should just say up front--I will be very 
un-Washington, too--I am not a military expert. But I can tell 
you that we have an analyst working on this to compile the 
list. And point number three of my testimony on page 16, it is 
the full list of the military deals that are pending, the $11 
billion.
    Some of this material will be used certainly for defense, 
the ability to shuttle forces quickly to the spot of an attack, 
anti-missile batteries, things of the like, but also Apache 
attack helicopters, which have dual use.
    I would not propose right now to say that the Qataris are 
looking to go on the offensive in the region. I think they are 
trying to upgrade their military to----
    Mr. Sherman. Thank you. Do the other witnesses have a 
comment on that? I would point out that the UAE appears to be 
involved in bombing Libya, and so small countries can project 
power. In light of Qatar's support from Hamas, should we be 
approving and proceeding with this $11 billion sale? Dr. Cook? 
Maybe I could get a yes/no from all three of you.
    Mr. Cook. I don't think we should be proceeding with the 
sale. No.
    Mr. Sherman. Mr. Jorisch?
    Mr. Jorisch. No, sir. I don't think we should be proceeding 
with the sale.
    Mr. Sherman. Mr. Schanzer?
    Mr. Schanzer. Nor do I.
    Mr. Sherman. One of the difficult things is there seems--
there is general support for providing aid to the people of 
Gaza, and those people are held hostage by, and any dollars--
Hamas--any dollar that goes into Gaza could be grabbed by 
Hamas.
    Now, I would point out that by U.N. statistics, the health 
and life expectancy of the residents of Gaza is better than 
that of the residents of Turkey, but--so we may be providing 
more aid, and we are providing more aid as a world than any 
other needy population in the world. But everyone agrees that 
at least some aid should read the people of Gaza.
    Israel collects a value added tax and tariffs on goods 
going into the West Bank and Gaza, gives that money to the PA. 
Does Hamas--who gets that money or the portion of it relevant 
to value added taxes and tariffs collected by Israel on goods 
legally going into Gaza?
    Mr. Schanzer. Ranking Member Sherman, that is--about $100 
million per month that goes directly to the PA Government in 
the West Bank. The way that they----
    Mr. Sherman. And that is on goods both headed to the West 
Bank and goods headed into Gaza.
    Mr. Schanzer. Well, we have got a significant drawdown in 
terms of what is going into the Gaza Strip. But, yes, I think 
there is a small portion of that; obviously, a larger portion 
going to the West Bank.
    Mr. Sherman. Right.
    Mr. Schanzer. I couldn't tell you on the exact percentages, 
but at the end of the day there is money that is trickling 
through--the payment of officials on the other side, the 
Palestinian Authority officials, that continue to be paid 
there. Some of them may be aligned with Hamas, but, more 
importantly, there is the--and I have actually flagged this for 
this subcommittee before. The electric company that is 
operating out of Gaza has been funded almost entirely by the 
West Bank government, and Hamas collects the bills for that, 
and they do not remit it back. So this is an indirect way----
    Mr. Sherman. So money is collected by Israel, it goes to 
the PA, and in various ways that benefits Hamas. Dr. Cook, do 
you have a comment on that?
    Mr. Cook. My sense is--and, again, I--the expertise in the 
flows of--financial flows is with Mr. Jorisch and Dr. Schanzer. 
But my understanding is, of course, that the Israelis collect 
this value added tax and then contribute it to the Palestinian 
Authority. That Palestinian Authority uses it as it sees fit. 
So it----
    Mr. Sherman. Including methods that help--because I want to 
get in one final comment, and that is one of our possible 
responses to Qatar is to call for democracy in Qatar, in which 
the ruler of the country would be selected not only by those 
who are ``citizens'' but anyone who has lived there legally for 
10 or 20 years.
    We are talking about a country with over 2 million people, 
80 percent of whom are guest workers. And I don't know of any 
supporter of democracy that would say you could exclude 80 
percent of the population of a country from voting and call it 
a democracy. And we have had some difficulty with promoting 
democracy in the Middle East, but if there is one place where I 
don't think it would result in a worse government it would be 
Qatar.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Sherman.
    Pleased to yield to Mr. Perry.
    Mr. Perry. Thank you, Madam Chair.
    And thank you, gentlemen. The testimony is fascinating. It 
is my understanding that United Sates taxpayers give 
approximately $300 million to the United Nations Relief and 
Works Agency annually in order to provide humanitarian 
assistance. And during the recent conflict, rockets were 
discovered in three of UNRWA schools. I can remember the 
wailing and the moaning about Israel bombing these schools, and 
I also remember the U.N.'s spokesperson deriding those actions.
    In one of those cases, UNRWA handed over to local 
authorities the rockets in the Hamas-run territory, and in 
another the rockets disappeared. Can I just get your comments 
on the relationship between you and UNRWA and Hamas, and what 
we can do to ensure that this--it is unbelievable to me. It is 
unimaginable that we, as taxpayers, then watch the criticism 
from the U.N. in particular. In particular. I can understand 
Hamas; it feathers their own nest. I mean, it furthers their 
goal and they do it specifically for that reason. I understand 
that. The U.N., $300 million in taxpayer money.
    Let us start with Mr. Cook and just go down the line.
    Mr. Cook. Thank you for the question, sir. UNRWA, as it is 
often referred to, is a deeply compromised organization, and it 
has been for some time deeply compromised by its relationship 
with various different groups and been caring for Palestinian 
refugees now for 60-plus years, and over that time has become 
compromised by its association with different groups.
    In the Gaza Strip in particular, UNRWA workers are either 
compromised by their--let us say their dispositions toward 
Hamas or are intimidated by them. And, as a result, that is how 
you get these bizarre situations in which UNRWA staff are 
handing rockets over. They are either compromised by supporting 
them----
    Mr. Perry. Please provide briefly your solution set at the 
same time.
    Mr. Cook. Well----
    Mr. Perry. What should the United States do, in your 
opinion?
    Mr. Cook. Well, I think that the solution is, obviously, to 
either not fund UNRWA or to build up the Palestinian Authority, 
so that it can take care of people in the Gaza Strip, something 
that we have thus far been unwilling to do, but, nevertheless, 
it is a solution to the problem.
    Mr. Jorisch. In short, defund UNRWA. UNRWA is engaging in 
horrific activities. It is aiding and abetting a terrorist 
organization. It is essentially allowing Hamas to store its 
rockets. The Israelis are left holding the bag. They don't 
really know what to do with themselves. Essentially, they have 
to choose between protecting their own citizens and ultimately 
hurting civilians on the other side.
    There is a cycle of violence here that, really, there is 
very little that one can do. Defund UNRWA, simply put.
    Mr. Schanzer. Representative Perry, I would actually just 
back up for a moment and note that in my view UNRWA has played 
a very peculiar role in perpetuating the Palestinian-Israeli 
conflict. It has changed the definition of ``refugee'' such 
that you now have the--you have the children, the 
grandchildren, and the great-grandchildren of the original 
refugees.
    So whereas there were roughly 800,000 refugees after 1948, 
today, by their calculations, there are 5 million refugees. 
There is no way, obviously, that Israel could accommodate them. 
In reality, there is probably something like 30,000, which is 
obviously a number that Israel could deal with, but UNRWA has 
not yielded on that. That is one area of reform that I think is 
absolutely necessary.
    But in terms of its direct support to Hamas, look, they are 
beholden to the people who control that territory. They are 
beholden to that government. They have to operate under Hamas 
rules. This means that in some cases the schools teach Hamas 
curriculum. Sometimes they hire Hamas as employees, and we have 
seen examples of this.
    The fact that they were allowing for the building of 
tunnels, these commando tunnels, underneath their facilities in 
my opinion very much needs to be investigated, if not by these 
committees by some other, to determine whether there is 
culpability.
    There is--actually, most people don't know this, but there 
appears to be what I would only call a lobby office here in 
Washington. Why a refugee agency needs to maintain that here in 
Washington is still beyond comprehension to me.
    And so, look, in answer to your question, we either need to 
have a serious overhaul of this organization, or to defund it 
and let it collapse. It has got to be one or the other, and 
this has been a problem that has gone on for too long.
    Mr. Perry. Thank you. It would be fascinating, as my time 
expires, to know what this administration in the form of our 
Ambassador to the U.N. has done in this regard. I have heard 
nothing from the counterpoint side, and a strong statement or 
more from this administration to say it is unacceptable to the 
U.N., which we are great part of and the United States funds in 
a great degree, and yet we have no--we are saying nothing. We 
are silent.
    And I yield back. Thanks, Chair.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    Mr. Jorisch, I find myself certainly in agreement with much 
of your analysis, but I am concerned about your prescription. 
If I heard you correctly, your answer is defund UNRWA, defund 
the Palestinian Authority, put more pressure on Qatar, make 
their banking system harder, close the military base in Qatar.
    I am a little concerned that if we did all of that we--and 
maybe we should--but we certainly actually lose leverage, and 
it seems to me that we also leave the region, imperfect 
instruments though they may be, and even at times 
counterproductive instruments, with very little left with which 
to try to address a very complex and painful and difficult 
situation. Those seem pretty rigid, absolute prescriptions.
    Mr. Jorisch. Sir, ultimately, we have to know who our 
friends are and who our friends are not, send the right 
messaging to who our friends are not. We have a tremendous 
amount of leverage over Qatar. We have a tremendous amount of 
leverage over Turkey and others in the region, and we don't 
leverage it. When it comes to our banking sector, they need us 
more than we need them.
    And I have a feeling, and I know for a fact having spent 
time in government, when you exert that pressure those 
governments move.
    Mr. Connolly. That is sometimes true. But I guess I don't 
share the view that you are either a friend or you are not a 
friend. I think the world is more complicated than that. In 
fact, I would argue that is part of the underpinnings of the 
Bush administration foreign policy that did not work.
    Dr. Cook, Mr. Jorisch just made reference to our leverage, 
a lot of--considerable leverage in Turkey. What leverage would 
that be, in your view? And, by the way, I appreciate your 
calling out the letter that the four co-chairs of the Turkey 
Caucus here in Congress wrote to Prime Minister, now President 
Erdogan. I was proud to be one of those four. And I think, 
frankly, President Erdogan has gone far afield, and I think we 
have got a problem now, given the fact that he has a new job.
    And of course ironically he used the letter publicly to 
help himself, which is always what I am concerned about, that 
when we make some strident statement here, it actually has a 
counterproductive effect--not that that is our intent--
politically there. And we saw that certainly with Erdogan.
    But help us understand. What is the leverage? I mean, if I 
follow Mr. Jorisch's prescriptions, let us close the bases in 
Turkey, let us kick them out of NATO, not that he said that, 
but that is where leads us, that logic. You are either a friend 
or you are not. You either do what we want or you don't. And if 
you don't, we are going to look at the absolute punishments 
available to us. Is that really the leverage we have over 
Turkey?
    Mr. Cook. Thank you for the question, Mr. Connolly. And I 
think that what your remarks reflect is the difficulties, the 
way in which we talk about leverage. We make assumptions that 
we have leverage in certain areas when we don't necessarily 
have them. As you point out, that very strongly worded letter 
on which you were a co-signer, Erdogan turned around and used 
very much to his advantage.
    Mr. Connolly. And by the way--I am sorry to interrupt--but 
for the record, we did not release the letter. It was a private 
letter to the Turkish Government and to him. He released the 
letter.
    Mr. Cook. Exactly, exactly.
    Mr. Connolly. Because we were trying to show respect to--
one last-ditch effort to get him to cease and desist and recall 
that virulently anti-Semitic language. And of course he decided 
to just use it for his own political gain.
    Mr. Cook. And that is precisely the case. And it is not 
just Erdogan and the ruling Justice and Development Party that 
he uses this type of anti-Americanism to advance their 
political agenda across the Turkish political spectrum.
    Mr. Connolly. But do we have leverage? I mean, how much of 
a threat is it really that we will close down the bases, we 
will----
    Mr. Cook. Right. I think it is unlikely to have an effect 
on Erdogan, the threat that we would leave Incirlik Air Base, 
from which we are using for a variety of purposes with regard 
to Iraq and Syria and only going to grow in more importance as 
we get reengaged on those conflicts.
    I think what I pointed out in my testimony, something that 
Erdogan does in fact respond to, and that he does respond to 
public censure from senior U.S. Government officials. With all 
due respect to our State Department spokespeople, they are 
dismissed when they make statements criticizing Erdogan for the 
type of anti-Semitic language that he used.
    And I should point out he even used language that is deeply 
offensive to Americans asking rhetorically what Americans knew 
about Hitler. The answer is 200,000 Americans died fighting 
Hitler.
    But when the President of the United States--on the 
occasion that he has used the public censure of Erdogan, when 
the Secretary of State rebuked Erdogan directly for his 
statement Zionism is a crime against humanity, we saw some 
change in their behavior.
    These kinds of threats--I think the Turks know we are not 
going to leave Incirlik Air Base. I think the Turks know that 
we need them to--by dint of their geography on a number of 
regional hotspots. That is not to excuse their behavior.
    As I said in my testimony, there is a bizarre, a peculiar 
connection between the Justice and Development Party and Hamas, 
and it has got to stop. That said, I think those kinds of 
threats--Mr. Jorisch and Dr. Schanzer have a better view of the 
financial issues that are important in these types of 
relationships. That may in fact be something where the United 
States has leverage, but these other kinds of threats strike me 
as--and with respect to my colleague and friend, strike me as 
things that are not necessarily going to move President Erdogan 
or his new Prime Minister.
    Mr. Connolly. Thank you. Thank you, Madam Chairman. And I 
apologize to the panel, I wish we could have more--I only have 
5 minutes--because I know this conversation really has much 
more depth to it, and many more aspects to it. So thank you all 
for----
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Clawson is recognized.
    Mr. Clawson. I have a more short-term question for the 
three of you, please. In this recent 50-day conflict, Hamas has 
shot lots of rockets, right? And it is my belief that the 
Israeli Defense Organization have also destroyed some of their 
rocket-making manufacturing. So now, is Hamas resupplying? I 
mean, we have been talking about money. You know, more money 
means more rockets to Hamas, which means more rockets into 
Israel.
    So are they resupplying? Where are those rockets coming 
from? And what can the U.S. do to stop it? Or if we can't stop 
it, how can we work with Israel to slow it down? I would like 
to hear what you have to say.
    Thank you.
    Mr. Schanzer. Mr. Clawson, thank you for the question. It 
was our understanding before the conflict began that there were 
roughly 10,000 rockets in Hamas' possession. It fired off 
roughly 4,000 of those rockets into Israeli airspace. Another 
estimated 2,500 were destroyed through Israeli operations 
targeting the rocket caches below ground or perhaps even some 
of them before they were being fired, even as they were on the 
launcher.
    And so that leaves us with about 3,500 rockets in their 
possession, a lot of them smaller rockets, the smaller 
ordnance. Maybe about 200 of those mid-range rockets, the M302s 
or Fajr 5s, still remain in Hamas' possession.
    The resupplying of the smaller range rockets, the Qassam 
rockets, the Grad rockets, and even possibly the ones that they 
call the J80s, and perhaps even a few other varieties, are 
being rebuilt again thanks to Iranian engineers who have 
trained Hamas on Iranian soil to be able to put these together.
    So, in other words, they smuggle in these small bits of 
whatever they need for the rockets. Sometimes they use 
materials that are already there, including plumbing, piping, 
and other things that can be, you know, dual use. And so they 
have this indigenous rocket-making capability right now. It is 
the longer range rockets that I think the Israelis are more 
concerned about in terms of what was--what could be smuggled 
in, and it is for that reason that they are keeping a very 
close eye on the fishermen.
    You know, if you remember, the terms of the cease fire deal 
included the ability for the fishermen to go further out at 
sea. The concern is is that some of these fishermen are fishing 
for other things, bringing back rockets into the Gaza Strip. Of 
course, the tunnels remain a problem. Even though a lot of them 
have been destroyed between Sinai and Gaza, some of them are 
still operational, and that is--so at least some of those 
rockets are still getting in.
    And, of course, as I mentioned before, Sudan remains a 
significant pipeline. Port Sudan I believe is the area that we 
all need to focus on right now. That is the hub for where 
Iranian rockets arrive before they are smuggled up into Egypt 
and across the Sinai Peninsula.
    Mr. Jorisch. Mr. Clawson, I totally agree with Dr. 
Schanzer's analysis. But ultimately, while we have been 
leveraged, we do have--and this is to Mr. Connolly's question 
as well--lies strictly in the banking sector. When it comes to 
correspondent banking, ultimately each and every one of these 
financial institutions--Iranians, Sudanese, Qatari--all want a 
presence in the United States, all rely on the U.S. dollar. And 
our largest presence lies in whether we allow those financial 
institutions to have a presence in the United States and/or 
their third party transactions.
    So take a Sudanese bank or an Iranian bank. They are using 
European financial institutions, which essentially will allow 
them access to the U.S. dollar. Ultimately, our largest 
leverage lies with the financial sector. There is no financial 
institution in the world that doesn't want a U.S. presence and/
or access to the U.S. dollar.
    When we talk about moving the dial, the Turks and the 
Qataris, in particular, they want access to the United States. 
During Dr. Schanzer's time and mine in the Treasury Department, 
we had repeated meetings with the Turks in terms of their 
status in the United States and with the FATF, the Financial 
Action Task Force. And I can assure you they moved very quickly 
when the FATF or the United States thought about, spoke about, 
even made intimations that it was going to be on a blacklist. 
And that does move the dial.
    Same thing when it comes to the Sudanese and the Iranians. 
The Iranians, the found it much, much more difficult in large 
part as a result of Congress, the CISADA, the Comprehensive 
Iran Sanctions Accountability and Divestment Act, to 
essentially move money around the international financial 
sector.
    Financial institutions around the globe stopped doing 
business with them. In 2010, before CISADA was passed on July 
1, 2010, there were 59 banks around the globe doing business 
with Iran's financial institutions. Afterwards, that number 
came down to maybe a dozen, maybe half a dozen, somewhere 
between half a dozen and a dozen financial institutions.
    There are those out there, policy analysts on both sides of 
the Atlantic, that essentially say that in large measure the 
reason why the Iranians are at the negotiation table today are 
in large part because of those sanctions.
    Mr. Clawson. If I can jump in just for a second. Moving 
money around in a multi-national organization, of which I have 
experience, is not easy to do. There is tax laws and 
regulations from the different--from all of the different 
originating countries.
    It feels like other than with the exception of Iran we are 
not really trying that hard. Is that right? Because----
    Ms. Ros-Lehtinen. Mr. Clawson, that is an excellent 
question, and maybe the panelists will have an opportunity to--
--
    Mr. Clawson. Thanks, guys. Great job.
    Ms. Ros-Lehtinen. Thank you. Thank you, sir.
    Mr. Schneider of Illinois is recognized.
    Mr. Schneider. Thank you, Madam Chairman. And, again, thank 
you for calling the hearing, and the panel for helping us dig 
deeper into a very difficult situation.
    Dr. Cook, you seem to draw a distinction or try to draw a 
distinction between--specifically Qatar, between ideology and a 
desire for influence. The ideology of Hamas stems directly from 
its outgrowth from the Muslim Brotherhood. How important, in 
your view--I will open it up to the whole panel--is the Muslim 
Brotherhood ideology to the funding of Hamas from Qatar, from 
Turkey, from even individuals and others in the region?
    Mr. Cook. Thank you. It is a very, very important question, 
and I think the events in Egypt during the summer of 2013 have 
generally colored the way in which we view the Muslim 
Brotherhood and its popularity throughout the region.
    It had been quite popular in Egypt, and then suddenly 
wasn't, and I think that there is an assumption that people 
make that the Brotherhood is on its last legs, on its heels 
throughout the region, when in fact I think private citizens, 
people throughout the region, do subscribe to a world view of 
the Muslim Brotherhood, and that is a function--and the funding 
that comes from not just Qatar but comes from all over the 
Middle East to Hamas and other organizations around the region 
are a function of the fact that the Brotherhood and its world 
view remain important in the politics of the region.
    There is no doubt that there are Brotherhood networks 
throughout the region. One of the demands that the Saudis and 
the Emiratis have of the Qataris is that they return Saudi and 
Emirati members of the Muslim Brotherhood that have found 
sanctuary in Doha.
    It is something that is I think deeply embedded and 
ingrained throughout the region. It is widely seen as 
legitimate. And Hamas, as a result, is widely seen as 
legitimate. Remember, this organization is referred to as 
Resistance. And in many ways many of the people who are--
especially those private groups and private donations coming 
in, see Hamas' legitimate resistance against the Israeli 
occupation.
    Mr. Schneider. So, and, Mr. Jorisch, I see you nodding your 
head. Is there a relevant distinction between the Muslim 
Brotherhood driven ideology of Hamas and al-Qaeda or Islamic 
State? Aren't they all part of the same line of ideology?
    Mr. Jorisch. The answer is absolutely yes, sir. If you look 
at the ideology of Hamas, and you look at the ideology of 
Islamic jihad, and you look at the ideology of al-Qaeda and 
ISIS, they are one and the same, and they have an ideology of 
essentially implementing the Islamic State not only in their 
own jurisdictions but growing it.
    There is Dar al-Islaam and Dar al-Harb. There is the Abode 
of Islam and the Abode of War. And each of these organizations 
is playing off of the exact same playbook, and which is why I 
find it so bizarre, so strange that the administration is 
effectively calling for war against ISIS on the one hand but 
negotiating or encouraging the negotiation with Hamas on the 
other. It makes no sense. We ought to have a policy on radical 
Islam, and we don't have one today.
    Mr. Schneider. Dr. Schanzer?
    Mr. Schanzer. Yes. Mr. Schneider, it is a very good 
question. Look, I think the way that Qatar is traditionally 
described in this town is pragmatic. I think it ignores the 
fact that--Qatar is in fact also a Wahhabi organization or a 
Wahhabi State. It is not in the same vein as Saudi Arabia, but 
it is certainly imbued with a certain Islamist ideology.
    And so we have seen not only the support of Qatar for Hamas 
or for the Muslim Brotherhood, but also for the Musra Front, 
other jihadi groups, in Syria the Taliban as we know. And, 
look, I would just point out also that--and this does not get a 
lot of attention, but Khaled Sheik Mohammed, the mastermind of 
the 9/11 attacks, lived in Qatar with the full knowledge of the 
Qatari Government for several years. And before the United 
States was about to take him out on Qatari soil in an 
operation, he was tipped off and he was able to leave.
    This is the kind of country that we are dealing with. And, 
yes, it is pragmatic in the sense that it is willing to buy 
large stakes in real estate ventures here in the United States, 
or other companies around the world, the fact that it has money 
to burn in the Western economy does not make it an equal 
partner ideologically.
    Mr. Schneider. Right. And I am sorry to take back the time, 
but I only have a few seconds. But it is that natural resource 
wealth leading to an ideology that has a broad reach across the 
entire region.
    And in the last seconds, and maybe we can submit answers 
later, or if there is time available, you have got the Muslim 
Brotherhood ideology coming in direct conflict with facing 
Iran. But Iran--this is not a case I believe of our enemy of 
our enemy is our friend. These are both issues that we need to 
address and stand up to. And while they fight each other, we 
need to know and understand our relationship vis-a-vis each as 
well.
    And I see I am out of time.
    Mr. Weber [presiding]. The gentleman yields back, and the 
gentleman from Florida, Mr. DeSantis, is recognized for 5 
minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thank you for the witnesses. I have really appreciated 
hearing your testimony and your answers to the questions. And I 
think following up on that last series of questions, and I 
think, Mr. Jorisch, you really hit it on the head to point out 
to the extent to which Hamas is part and parcel of the other 
Islamic jihadist movements that we are seeing.
    Hamas wants an Islamic caliphate, correct?
    Mr. Jorisch. Absolutely. Yes.
    Mr. DeSantis. I mean, the idea that somehow they just--they 
are fighting against occupation is what people will somehow 
say. Of course, we know Israel left Hamas almost a decade ago, 
or left the Gaza Strip. They had a chance to govern themselves. 
They chose to elect Hamas.
    What did Hamas do? Did they try to turn it into a Singapore 
on the Mediterranean? No. They built terrorist tunnels. They 
purchased rockets. The infrastructure that was left behind by 
the Israelis, they raised and destroyed rather than use that.
    And so they have had opportunities, and to me when those 
people say, ``Oh, it is just the Israeli policy that they are 
responding to'' fundamentally misunderstands the ideology that 
motivates them. Do you agree?
    Mr. Jorisch. I don't understand how we can be silent when 
it comes to Hamas when we are so loud when it comes to al-Qaeda 
and ISIS. It makes no sense. We should learn from 60 years ago 
to listen to what our enemies are saying. Hamas broadcasts 
clearly its ideology in its newspapers, on its radio stations, 
and its television statements. Hezbollah does exactly the same.
    As Mr. Schneider pointed out, in this case it is not under 
the enemy of our enemy is our friend. Hamas, the Sunni jihadi 
organizations, and the clerical regime that rules Iran today 
effectively are paying, when it comes to the issues that we 
care about, off of the same playbook. The same playbook.
    Mr. Jorisch. Absolutely. And that is why I appreciated the 
comments about the UNRWA funding. I have a bill, the 
Palestinian Accountability Act, that dealt with all of these 
issues. Any relationship in the government with Hamas, funding 
would stop.
    UNRWA, unless it could be demonstrated that they are on the 
up and up, funding ceases. And I think that that--it is a sense 
of, okay, some people say the world is complicated, but do you 
want to reward bad behavior, or do you want to punish bad 
behavior?
    And so for me it is simple. If I see UNRWA hiding rockets 
in one school, ``Oh, we didn't know,'' then another, ``Oh, we 
didn't''--so, I mean, at some point, you know, it is just--it 
doesn't even pass the laugh test. And so I think it would, one, 
be a good judicious use of protecting the taxpayer by not 
sending that funding over there; and, two, it would also just 
be a statement of our values. You align with Hamas; you are 
clearly not interested in peace with Israel. You are certainly 
not interested in being a constructive force in the region, so 
then we should act accordingly.
    I think the Secretary of State should have cut off the 
funding. I think the chairwoman's amendment she passed several 
years ago mandated that. They had kind of said, ``Oh, well, 
Hamas doesn't have undue influence.'' But as you point out, 
money is fungible. The money that goes to PA they can say is 
not going to be sent to Hamas, but it frees up other funds that 
can go there.
    With Turkey, to what extent is it tenable to consider them 
to be an ally. Of course, they are in NATO. The idea was they 
are a bridge from kind of the West to the Middle East. They had 
played a constructive role and have been pro-Western in the 
past. Under this current President, they have gone in a very, 
very bad direction.
    So how should we respond to Turkey? I know some of you said 
pressure Turkey. But can you have somebody in NATO who is also 
funding Islamic jihad? I mean, wouldn't that just completely 
rule you out of being an ally of the Western democracies?
    Mr. Cook. I assume that is a question for me. Thank you for 
it. I think that you raise some very serious questions about 
the Turkish Government under the Justice and Development Party 
and new President Erdogan, who was the Prime Minister over the 
course of the last 12 years.
    The Turks maintain that they want to have a 360-degree 
foreign policy, which means their connections, they are robust 
connections to the West, as well as connections to other 
countries in the region. My concern is, however, that they 
themselves are not being true to that 360-degree foreign 
policy, and that under the new Prime Minister Ahmet Davutoglu, 
who is the architect of their foreign policy over the course of 
the last decade, believes Turkey to be a Muslim power. And, as 
a result of its--the role he believes it should play, requires 
that Turkey support groups like Hamas and others in the region.
    I think that it is up to NATO to determine whether Turkey 
has run afoul of what constitutes being a NATO partner. 
Certainly, what's going to happen in the coming weeks, days, 
and months with regard to the Islamic State of Iraq and Syria, 
and the conflict in Iraq, that will be a test of whether Turkey 
takes its NATO role very seriously.
    Thus far, they have said that they are playing a non-active 
role in this coalition. I am not exactly sure what a non-active 
role in a coalition exactly means, but I think that the 
question that you asked, Mr. DeSantis, about Turkey and its 
ultimate trajectory is a very good one.
    Mr. DeSantis. Thanks. I am out of time, but I appreciate 
everything that you guys have given us to consider today, and I 
yield back.
    Mr. Weber. Thank you.
    The gentlelady from Florida is recognized.
    Ms. Frankel. Thank you, Mr. Chair. And I think we all agree 
that despite the fact--and we are grateful of the cease fire--
that Hamas remains a threat.
    Since I am sort of at the end of the questioning here, and 
this has been a great discussion, I would sort of--I would like 
to ask you if you can just sort of sum up what we have heard in 
little bits and pieces. And if you could, as best possible, 
looking at the four named countries that you say are the--or 
maybe the benefactors, our four--yes, Qatar, Turkey, Iran, 
Sudan--if you could describe simply what you think are the 
motivating factors of why they are benefactors. Is it anti-
Semitism, religious, economic, whatever, and what are our best 
leverage points in cutting off the funding?
    Mr. Schanzer. I can maybe take a first stab at this, Ms. 
Frankel. Thank you. Look, I think that, first of all, the anti-
Israel sentiment, the Islamist sentiment, these are kind of the 
lowest common denominators in all four of these countries.
    Each of them come about it from very different 
perspectives. Iran, I think a much more vitriolic brand; Sudan, 
I think somewhat subservient to Iran in that respect; Qatar and 
Turkey, more of the Muslim Brotherhood variety of this 
ideology. But, nevertheless, this resonates not only within the 
populations but also across the Muslim world. So this is an 
attempt to demonstrate leadership across the region as well as 
at home. And this I think continues to drive this activity.
    Now, as for how to handle this, we I think have really 
leveraged quite a bit of sanctions already on Iran, quite a bit 
on Sudan, and there are--look, I think there may be some juice 
left in the tank with the Iranians. I think there are still 
ways to pressure them. The Sudanese, probably less so; they are 
a basket case.
    But with regard to Turkey and Qatar, I don't think we have 
even started to try. I don't believe that we have sent the 
tough messages. I don't believe that we have designated the 
one-off individual or one-off bank that can send that shockwave 
through the system.
    There is a way to turn this up one notch at a time to let 
these countries know that once you have done one designation, 
if they don't fix things, then you do another, and then you do 
another. This is, by the way, what we did with the Iranians 
which led them to the negotiating table over their nuclear 
program, and eventually it got so painful that they decided 
that it was time to talk.
    We have not--I mean, we continue to hear that we have no 
leverage. I think this is very wrong. I don't think that we 
have even started to try to see whether we have leverage. I 
think the time is now to start.
    Mr. Jorisch. I yield my time to Dr. Cook. I agree 
completely with Dr. Schanzer's sentiment.
    Mr. Cook. Thank you for the question, Ms. Frankel. The 
basis for Qatari and Turkish support are--for Hamas are laid 
out in some detail in my written testimony. But it is a 
combination of both pragmatism, regional politics, and domestic 
politics that--essentially to support advances, particularly 
Qatari and Turkish interests.
    I think that as long as that logic holds, it is going to be 
difficult for the United States to undermine those relations. I 
certainly believe that in the short run our leverage, given the 
roles that both the Qataris and the Turks are playing in the 
region, and are going to play in the region, our leverage is 
more limited than my two colleagues would suggest.
    Over a long period of time, if the United States wants to 
consider moving its air bases from Qatar or moving a NATO 
facility, both the Incirlik Air Base, as well as the early 
radar warning missile system that is directed against Iranian 
ballistic missiles out of Turkey, those are the kinds of things 
that the United States and the Congress can explore in terms of 
gaining some leverage, as well as the kind of financial actions 
that Dr. Schanzer is discussing.
    But, unfortunately, I think for the short term, for the 
time horizon that this administration is looking at, and for 
the challenges that it faces in the region, the kinds of things 
that have been suggested in terms of leverage are not likely to 
come about.
    Thank you very much.
    Ms. Frankel. Thank you, Mr. Chair, and I yield the rest of 
my time.
    Mr. Weber. Excellent questions. Although I am a little 
miffed because you took one of mine.
    Okay. The Chair now recognizes Dr. Yoho.
    Mr. Yoho. Thank you, Mr. Chair.
    Thank you, gentlemen. I appreciate the testimony. It has 
been enlightening, and I feel your frustration because what you 
are recommending is what we should have been doing and we 
haven't done. And for the last 30 or 40 years, when we look at 
what we have done with Mubarak and Egypt, knowing these tunnels 
are being built and we are giving money, and this veneer of 
democracy that they are building and are promoting, are 
allowing the terrorist acts to go on.
    And when you look at, like, Turkey's new Prime Minister, 
Ahmet--I can't pronounce his last name--believes that the state 
system, based on nationalism and political institutions that 
trace their lineage to the West, is fundamentally unsustainable 
in Muslim societies. If Turkey is going to lead the region, 
Ankara must do so as the Muslim power in cooperation with 
Islamist groups.
    I mean, it pretty much lays it right out there. The new 
Prime Minister says this. And so knowing that, and if we have 
been playing this game for--I don't want to call it a game. If 
we have been--our foreign policy, which I think is way off 
track, it is askew, it is a broken compass, because we don't 
have strong national leadership directing this for what America 
stands for.
    If we don't stand up and say, ``This is what we want to 
do,'' the Palestinian Authority--in fact, we have got a 
resolution on what we were talking about earlier. Paying $500 
million a year over the last 10 years is $5 billion of the 
American taxpayers' money, and they have--and this is from 
2010--their resolution in the Palestinian Authority, Government 
Resolution 21 and 23, where they are paying the prisoners in 
Israeli prisons for acts of terror. It goes up to $3,400 a 
month. Average income over there is $4,000 a year, and we are 
promoting this.
    We know we are promoting it, and it is--the money is 
fungible. It is like Mr. DeSantis says, if we give $500 million 
here, even though it doesn't go there, it frees up money coming 
from somewhere else. And I think it is time to draw a line and 
just say, ``We are not putting up with this anymore,'' and put 
the pressure on Qatar and Turkey and just say, ``We are not 
going to help you work against us.'' If we are serious about 
bringing peace to the Middle East, I think your recommendations 
are spot on, and we will promote introducing those as far as 
legislation.
    Other than that, Dr. Cook, you basically stated that--what 
I got out of your last statement, that Turkey--they want that 
360-degree vision, you know, all-encompassing. It is kind of 
like they want their cake or our cake and eat it, too. You 
know, they are taking it with one hand--and we see this so 
often. They take money--these countries take money from us with 
one hand, and then cover up their eyes with the other and 
ignore the problem. And the American taxpayers are the one on 
the hook, and our military are on the hook.
    And if we are to bring world peace, we need to act like the 
superpower that we are and just say, ``We are not doing this 
anymore.'' And if Turkey and Qatar don't come to our side, I 
say we need to just put more pressure on them and go after the 
money, because I think the money is the thing that is the most 
important.
    And I just want to say I appreciate you guys being here, 
because I think you--like I said before, you are spot on with 
your testimony. We look forward to act on that.
    Thank you. I yield back.
    Mr. Weber. The Chair recognizes the gentleman from Georgia, 
Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. It is always hard to 
follow someone who has such a lack of passion for his issues as 
Dr. Yoho does, a dear friend of mine who has actually--I think 
it was really interesting--and before I get into the questions 
here, Dr. DeSantis, you hit on this, and I think personally--I 
know there is going to be a big speech tomorrow night. I am 
glad we are speaking and the world is shivering--tomorrow night 
about what we are wanting to do.
    But I would love to see a lead on sort of what you said 
earlier is the financial aspect of what we can do. I mean, as 
someone who has served at al Udeid, who has been at that base, 
who has been in Iraq, who has been, you know, back and forth 
here, I have got some other questions. But your comment hit me, 
and if anybody could--if anybody wants to--why don't we--is 
there more of a concerted effort we could lead with cutting the 
funds off.
    If we could lead in these areas, whether it be Qatar, Saudi 
Arabia--I mean, let us talk about--let us just lay it on the 
table--these areas where we could do the funding sources 
through ``charitable organizations, non-charitable''--that 
seems to me, you are right. Iran came to the table. There has 
been a lot of discussion in this room about, oh, now we have 
pivoted and we are--we let them off the hook.
    We are letting them do exactly what they want to do. We 
gave them some money, and they are spending that money in ways 
that we can't be accountable to. So that--I want to just real 
quickly touch on that as far as a first piece strategy in our 
dealings with ISIS right now.
    Mr. Schanzer. Thank you, Mr. Collins. First of all, with 
respect to Iran, I do believe that the sanctions that we have 
imposed certainly brought them to the table. There is no 
question about it. I think it became very painful for them over 
time. This was, again, that strategy of turning it up one notch 
after another. I think the swift sanctions in particular, or 
pushing them out of the swift system, I think was probably the 
final step that forced Iran to come to the table.
    I do believe now that the sanctions relief that we are 
offering Iran, more than $7 billion, has certainly helped them 
spark a resurgence in their economy, and that is certainly 
taking away some of our leverage. And, by the way, I should 
just note in the context of Hamas, as we give them these 
billions of dollars, and as they are shipping these weapons 
over to Hamas, we are indirectly subsidizing this. We are 
allowing for it to happen, and I think it is a big mistake.
    Mr. Collins. Well, I think that has been brought up, and 
``indirectly'' is too kind of a word. You might as well just 
say, ``We are directly doing it, and we are fighting on two 
fronts here.'' That is another hearing that we could have. You 
know, we have been through it, and I appreciate your answer, 
but I want to turn to Hamas and I want to turn to a specific 
incident that--and all of you can comment on this.
    And this goes back to The New York Times reporting, an 
article about the three Israeli teenagers that were kidnapped 
in occupied West Bank in June. We know they were victims of a 
Hamas operation, supposedly without the foreknowledge of Hamas 
leadership. But according to Israeli investigators, two men 
associated with Hamas carried out the kidnapping and subsequent 
killing after receiving $60,000.
    Now, they were--this was--the money was flown from--you 
know, basically flew--or flowed from Gaza Strip to the West 
Bank in five installments, you know, the five installments 
clearly not raising red flags. There is an issue here that we 
could look at.
    The question I have is--and for any of you to sort of look 
at here--is Israel--with Israel allowing such restricted travel 
outside of Gaza, let us talk for a moment how that money would 
have flowed, because I think that goes to the heart of some of 
this funding, not only for Hamas but ISIS. I agree with you 
completely; let us call everybody what they are, and let us 
just don't put one in another--can you speak to that? Any of 
you want to touch on that one?
    Mr. Jorisch. There are four primary means that you can 
basically move money. You have cash, you have the formal 
financial sector, you have the informal financial sector, and 
you have trade. I don't know which of those means were used, 
but let us just take them each at a time.
    The cash is very simple. You basically put it in your 
pocket, you swallow it, you have it in a suitcase, what have 
you. You have the banking sector, so theoretically you could 
have had some coming out of an ATM, you could have had a wire 
transfer, you could have had a check, et cetera.
    Mr. Collins. And let me stop you, because given the travel 
restriction, don't you believe that probably the banking sector 
or some other kind of sector probably was more at risk or more 
active here?
    Mr. Jorisch. I actually suspect it was probably trade.
    Mr. Collins. Trade.
    Mr. Jorisch. Or cash.
    Mr. Collins. Okay.
    Mr. Jorisch. So let us take this bottle here, and I am 
going to tell you that it is worth $1.
    Mr. Collins. Right.
    Mr. Jorisch. Okay? And if I ship 12,000 of these, you have 
got $12,000 that moves, essentially sell it on the other side. 
There is a tremendous amount of reporting these days that Hamas 
is reliant more and more on trade because we have squeezed them 
on the banking sector. These tunnels have now been destroyed, 
or the vast majority of them, so the amount of cash that can go 
through, more and more they are depending on over, under, and 
false invoicing.
    Mr. Collins. Okay. Well, I appreciate it. And, amazingly, 
time has got out here. This is something that could be 
discussed and needs to be discussed more openly, because we 
are--you know, we can't isolate ourselves from the world. That 
is a fact.
    But also, we have got to be very smart on how we 
strategically put assets, both material assets and human 
assets, in these areas in which basically we are playing both 
sides off the middle. And that is not--and I appreciate, Dr. 
Cook, all of you here today, for doing that.
    And, Mr. Chairman, at zero, I yield back.
    Mr. Weber. Let the record show you were actually 1 second 
over.
    Mr. Collins. Mr. Chairman, it was because of my north 
Georgia accent that just was so fast getting in there it just 
missed the----
    Mr. Weber. The gentleman yields back, and the gentleman 
from South Carolina is recognized.
    Mr. Wilson. Mr. Chairman, thank you very much, and thank 
all of you for being here and providing some level of 
clarification. It is so sad to me this administration I think 
began with obfuscation, that it would say we are in a global 
war on terrorists. And then we get into, well, it is overseas 
contingency operation.
    By the time the American people figure out what is going 
on, we will have further attacks. And so I want to thank you 
for clarifying. What we are dealing with are terrorists, these 
people who have a keen interest in killing every Muslim that 
disagrees with them. So it is not just Jews, not just 
Christians, not just Hindus. It is so universal; it is just 
horrifying, although it is encouraging.
    I have been to the Middle East to see the Persian Gulf 
States, other examples. I have had--two of my sons served in 
Iraq, and the extraordinary people there who do want to live in 
the 21st century. I had another son serve with Bright Star in 
Egypt, and my youngest just got back from Afghanistan. And so 
there is hope, but we have got to show resolve.
    And, gosh, it is so frustrating to me, we get into 
semantics. The discussion this week as I came back, is it ISIS 
or is it ISIL? No, it is terrorists. And so thank you all for 
trying to clarify this to the American people.
    As we look at this--and, Mr. Jorisch, you already 
referenced it, but it is trade-based money laundering. And so 
the money to Hamas, through overpricing, undervaluing, 
whatever, there was an example of plastic buckets that cost 
$970 each from the Czech Republic. Really, we know they are 
really good buckets, but not like that. And so there was money 
that is being passed. How can we preemptively break this 
system?
    Mr. Jorisch. Mr. Wilson, thank you for your sons' service 
to begin with, and I will take your first point and then move 
to the second. President Bush declared this a war on terror. 
With all due respect to President Bush, you can't fight a 
tactic. We learned in World War II that you fight ideologies or 
countries. In World War II we fought Nazism, Communism, 
Fascism. We fought Nazi Germany. We fought Japan. We didn't 
fight German U-Boats, and we didn't fight Japanese Kamikaze 
airplanes.
    This administration, for its part, has refused to recognize 
that we are fighting radical Islam. And until we have a 
coherent, comprehensive strategy, as we did in the Cold War, 
when it came to a chess-like game, we are playing checkers and 
radical Muslims are playing chess. And until we have 
established a coherent policy on radical Islam, we are going to 
be behind the eight ball, and your sons, unfortunately, will be 
going to places without a coherent strategy.
    To your second point, trade-based money laundering, the 
only comprehensive strategy that we have established is 
something called the Trade Transparency Unit, which essentially 
collects information, trade information, imports and exports, 
and compares them to the other side of the invoice.
    Now, the United States Government has helped establish a 
number of these trade transparency units in places like Mexico, 
Colombia, Brazil, and a number of other places. We might 
consider funding a number of other trade transparency units in 
places like Israel and in Europe, which we have not done to 
date.
    Mr. Wilson. And, again, I just thank you for raising that. 
And my visits--I have been to the Middle East now 12 times, and 
it is always encouraging, the people that we meet with. They 
really do want to be in the 21st century, and you identify it 
correctly--radical Islam, a small percentage. And so I am just 
very hopeful.
    And last year I appreciate Dr. Fred Kagan was right here in 
June, and presented a map showing the spread of the terrorist 
organizations across North Africa, Middle East, and Central 
Asia. And it was extraordinary, because at the same time the 
administration was saying that terrorism was on a retreat. At 
the same exact time, indeed, Dr. Kagan was correct.
    But even that, we get into semantics. I still distribute 
that map, and people say, ``Well, actually, it is out of date 
because it doesn't mention ISIS or ISIL.'' Well, it doesn't 
need to, because of the changing names every day. It is 
international terrorism that we have got to face.
    And I want to thank all three of you for, in a very 
positive way, raising this. But I am just so hopeful for the 
people of the Middle East, that working together with them we 
can address which is a threat to the American people.
    Thank you.
    Mr. Weber. Thank you.
    The Chair now recognizes himself. I have got a three-part 
question, really, and Lois actually asked, I think, one part of 
it. If you were going to--and I am going to go to each of you 
individually, and we are going to do it in sections. If you 
could--if you are going to call out countries that: A) 
supported Hamas; B) supported jihad, which someone argued is 
one and the same; and, three, are working toward a caliphate, 
okay, if you were going to identify countries that met those 
three criteria, what countries would you identify?
    Let us start with you, Dr. Schanzer.
    Mr. Schanzer. Well, I think the four countries that we have 
identified here today all do it on some level, and I think the 
important thing is to note that they are doing it in varying 
degrees and perhaps----
    Mr. Weber. And that is my second part of the three-part 
question. Rank those in order.
    Mr. Schanzer. Well, look, I think Iran poses probably the 
most serious threat and is supportive of the most number of 
terrorist organizations around the world. I think Qatar has 
played a dangerous role similarly. Sudan has been more of a bit 
player, primarily because of its lack of resources. And Turkey 
is just new to the game.
    Mr. Weber. Okay. Do you all agree with that? Dr. Cook?
    Mr. Cook. Sure.
    Mr. Weber. Okay. How do we effectively call them out and 
make them pay a price to change that strategy?
    Mr. Schanzer. Look, with Iran and Sudan, we have already 
done that, right? We have called them state sponsors of 
terrorism. We have got sanctions, regimes, against them, and we 
have taken measures to isolate them. And I think we have done a 
fairly effective job, maybe not effective enough with regard to 
Iran and its nuclear program, but certainly we have given it a 
good college try.
    With regard to Qatar and Turkey, we have not even started 
to call them out. I can't stress this enough. We know that 
Hamas operatives are operating there in the light of day, and 
we know that money is flowing from these two countries to 
Hamas. We know, by the way, that there is other support that 
they are providing to other terrorist organizations in Syria 
right now, the same groups that we are trying to combat, and in 
some cases their policies have led to the rise of ISIS.
    That border policy on Turkey--I mean, again, it has been 
one of the most dangerous things I have seen in the last 2 
years, and the Turks have gotten away with it. They continue 
to--I think to have a loose border policy.
    These are all issues that I think we have neglected to say 
publicly. The moment we begin to do that is I think the moment 
that these countries begin to second-guess the policies that 
they have adopted. I think that up until now it has been the 
quiet approach, asking them nicely. That has not worked. It is 
time to step up the pressures.
    Mr. Weber. Mr. Jorisch?
    Mr. Jorisch. I agree. When it comes to Iran, Mr. Weber, 
Iran is the most dangerous player out there. They fund not only 
Hamas, they fund Hezbollah, tens of millions of dollars go 
every year--rather, hundreds of millions of dollars a year go 
to Hamas, hundreds of millions of dollars go to Hezbollah. If 
you rank them by order, you have Iran, as Dr. Schanzer points 
out, which is number one, and the rest in falling order of 
importance.
    We are not leveraging our banking sector enough. We have 
not----
    Mr. Weber. So you would say that that is the top chair, 
whether we would want to bring a U.N. resolution, whether we 
would want to do other things, make the statement from the 
administration and/or Congress. Don't want it to be said that 
Congress wasn't doing anything. Well, that is a shock.
    You would say that--do it through the banking system, 
number one.
    Mr. Jorisch. Yes.
    Mr. Weber. Number two?
    Mr. Jorisch. Ironically enough, we don't actually have an 
effective messaging system to that part of the world. Our 
television station that broadcasts into the Arab world today, 
not terribly effective. The radio station that broadcasts into 
the Arab world today, not terribly effective either. Until we 
basically flood the Arab media--and I mean Al Jazeera, el 
Arabia, and others, with some of the smartest guys in the room, 
to articulate U.S. foreign policy, we are not playing the game.
    Mr. Weber. Okay. Dr. Cook?
    Mr. Cook. Let me say that I am in general agreement with 
what Dr. Schanzer has said on these issues, but I want to 
broaden it. And I think we should understand that not only is 
it just Qatar or Turkey or Iran, but it is individuals 
throughout the region that are contributing to these groups, to 
Hamas, to ISIS, to all kinds of jihadi groups. And that makes 
it a bigger problem than just censuring one or the other or 
ranking these countries.
    Mr. Weber. So do you designate those individuals?
    Mr. Cook. I think that in certain places we do have to 
designate certain individuals who do it, but I think that the 
idea that we can get after every single one of them is a fool's 
errand. It is important----
    Mr. Weber. Well, obviously, you can't get after them, to 
use your term, but, I mean, you can take them--they can't visit 
certain countries. You can do all of those things.
    Mr. Cook. I think the large numbers--with respect, sir, 
with the large numbers of people who do contribute to these 
groups, I think it is beyond the scope of everybody that we 
could designate.
    My point in raising it is to suggest that this is a larger 
problem than just either one government or another government 
or not. Let me also amplify something that Dr. Schanzer said. I 
think that we have been, as I said in my written testimony, far 
too solicitous of the Turkish Government.
    He and I disagree--he and I disagree over whether the 
Qataris are pragmatic or not, but the Turks have in a sense 
taken this on in an ideological kind of way, in their support 
for Hamas. And the administration has put too much emphasis on 
private communication. As Dr. Schanzer said, their border 
policy has been terrible. The kind of rhetoric coming out of 
Ankara from the most senior leaders of the government have 
created an environment of hostility in the region that has done 
nothing but advance their own domestic political agenda.
    I think it is important for the United States to call them 
out on that issue in particular. I don't think, though, that we 
should fool ourselves into believing that once we do that that 
they are going to change. I think it is important for us in 
terms of our values and what we stand for in order to do those 
things, but it is not necessarily going to make them change.
    Mr. Weber. Okay. Well, I am out of time, so we are going to 
conclude this hearing. Thank you for your testimony. We 
appreciate you all.

    [Whereupon, at 12:11 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
